<html>
<title> - MORE THAN A NUCLEAR THREAT: NORTH KOREA'S CHEMICAL, BIOLOGICAL, AND CONVENTIONAL WEAPONS</title>
<body><pre>[House Hearing, 115 Congress]
[From the U.S. Government Publishing Office]




                      MORE THAN A NUCLEAR THREAT:
                  NORTH KOREA'S CHEMICAL, BIOLOGICAL,
                        AND CONVENTIONAL WEAPONS

=======================================================================

                             JOINT HEARING

                               BEFORE THE

         SUBCOMMITTEE ON TERRORISM, NONPROLIFERATION, AND TRADE

                                AND THE

                  SUBCOMMITTEE ON ASIA AND THE PACIFIC

                                 OF THE

                      COMMITTEE ON FOREIGN AFFAIRS
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED FIFTEENTH CONGRESS

                             SECOND SESSION

                               __________

                            JANUARY 17, 2018

                               __________

                           Serial No. 115-104

                               __________

        Printed for the use of the Committee on Foreign Affairs




[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]






Available via the World Wide Web: http://www.foreignaffairs.house.gov/ 
                                  or 
                       http://www.gpo.gov/fdsys/
                                    ______

                         U.S. GOVERNMENT PUBLISHING OFFICE 

28-334 PDF                     WASHINGTON : 2018 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Publishing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001
                                   
                                 
                                 
                                 
                                 
                                 
                                 
                                 
                                 
                                 
                                 
                                 
                                 
                                 
                                 
                                 
                                 
                                 
                                 
                                 
                                 
                                 
                                 
                                 
                                 
                                 
                                 
                                 
                                 
                                 
                                 
                                 
                                 
                                 
                                 
                                 
                                 
                                 
                      COMMITTEE ON FOREIGN AFFAIRS

                 EDWARD R. ROYCE, California, Chairman
CHRISTOPHER H. SMITH, New Jersey     ELIOT L. ENGEL, New York
ILEANA ROS-LEHTINEN, Florida         BRAD SHERMAN, California
DANA ROHRABACHER, California         GREGORY W. MEEKS, New York
STEVE CHABOT, Ohio                   ALBIO SIRES, New Jersey
JOE WILSON, South Carolina           GERALD E. CONNOLLY, Virginia
MICHAEL T. McCAUL, Texas             THEODORE E. DEUTCH, Florida
TED POE, Texas                       KAREN BASS, California
DARRELL E. ISSA, California          WILLIAM R. KEATING, Massachusetts
TOM MARINO, Pennsylvania             DAVID N. CICILLINE, Rhode Island
MO BROOKS, Alabama                   AMI BERA, California
PAUL COOK, California                LOIS FRANKEL, Florida
SCOTT PERRY, Pennsylvania            TULSI GABBARD, Hawaii
RON DeSANTIS, Florida                JOAQUIN CASTRO, Texas
MARK MEADOWS, North Carolina         ROBIN L. KELLY, Illinois
TED S. YOHO, Florida                 BRENDAN F. BOYLE, Pennsylvania
ADAM KINZINGER, Illinois             DINA TITUS, Nevada
LEE M. ZELDIN, New York              NORMA J. TORRES, California
DANIEL M. DONOVAN, Jr., New York     BRADLEY SCOTT SCHNEIDER, Illinois
F. JAMES SENSENBRENNER, Jr.,         THOMAS R. SUOZZI, New York
    Wisconsin                        ADRIANO ESPAILLAT, New York
ANN WAGNER, Missouri                 TED LIEU, California
BRIAN J. MAST, Florida
FRANCIS ROONEY, Florida
BRIAN K. FITZPATRICK, Pennsylvania
THOMAS A. GARRETT, Jr., Virginia
JOHN R. CURTIS, Utah

     Amy Porter, Chief of Staff      Thomas Sheehy, Staff Director

               Jason Steinbaum, Democratic Staff Director
         Subcommittee on Terrorism, Nonproliferation, and Trade

                        TED POE, Texas, Chairman
JOE WILSON, South Carolina           WILLIAM R. KEATING, Massachusetts
DARRELL E. ISSA, California          LOIS FRANKEL, Florida
PAUL COOK, California                BRENDAN F. BOYLE, Pennsylvania
SCOTT PERRY, Pennsylvania            DINA TITUS, Nevada
LEE M. ZELDIN, New York              NORMA J. TORRES, California
BRIAN J. MAST, Florida               BRADLEY SCOTT SCHNEIDER, Illinois
THOMAS A. GARRETT, Jr., Virginia

                                 ------                                

                  Subcommittee on Asia and the Pacific

                     TED S. YOHO, Florida, Chairman
DANA ROHRABACHER, California         BRAD SHERMAN, California
STEVE CHABOT, Ohio                   AMI BERA, California
TOM MARINO, Pennsylvania             DINA TITUS, Nevada
MO BROOKS, Alabama                   GERALD E. CONNOLLY, Virginia
SCOTT PERRY, Pennsylvania            THEODORE E. DEUTCH, Florida
ADAM KINZINGER, Illinois             TULSI GABBARD, Hawaii
ANN WAGNER, Missouri























                            C O N T E N T S

                              ----------                              
                                                                   Page

                               WITNESSES

Anthony Cordesman, Ph.D., Arleigh A. Burke Chair in Strategy, 
  Center for Strategic and International Studies.................    11
Mr. John Parachini, director, Intelligence Policy Center, RAND 
  Corporation....................................................    45
Mr. Anthony Ruggiero, senior fellow, Foundation for Defense of 
  Democracies....................................................    58
The Honorable Bonnie Jenkins, founder and president, Women of 
  Color Advancing Peace, Security and Conflict Transformation 
  (former Coordinator for Threat Reduction Programs, Bureau of 
  International Security and Nonproliferation, U.S. Department of 
  State).........................................................    72

          LETTERS, STATEMENTS, ETC., SUBMITTED FOR THE HEARING

Anthony Cordesman, Ph.D.: Prepared statement.....................    13
Mr. John Parachini: Prepared statement...........................    47
Mr. Anthony Ruggiero: Prepared statement.........................    60
The Honorable Bonnie Jenkins: Prepared statement.................    74

                                APPENDIX

Hearing notice...................................................   100
Hearing minutes..................................................   101
The Honorable Ted Poe, a Representative in Congress from the 
  State of Texas, and chairman, Subcommittee on Terrorism, 
  Nonproliferation, and Trade: Prepared statement................   102
The Honorable Gerald E. Connolly, a Representative in Congress 
  from the Commonwealth of Virginia: Prepared statement..........   104

 
                      MORE THAN A NUCLEAR THREAT:  
                  NORTH KOREA'S CHEMICAL, BIOLOGICAL, 
                       AND CONVENTIONAL WEAPONS

                              ----------                              


                      WEDNESDAY, JANUARY 17, 2018

                     House of Representatives,    

       Subcommittee on Terrorism, Nonproliferation, and Trade and

                 Subcommittee on Asia and the Pacific,

                     Committee on Foreign Affairs,

                            Washington, DC.

    The subcommittee met, pursuant to notice, at 2:04 p.m., in 
room 2172, Rayburn House Office Building, Hon. Ted Yoho 
(chairman of the Subcommittee on Asia and the Pacific) 
presiding.
    Mr. Yoho. The subcommittee will come to order. Chairman Poe 
got detained because of the weather, and I guess Texas isn't 
set up for equipment like that, deicing planes.
    Members present will be permitted to submit written 
statements to be included in the official hearing record. 
Without objection, the hearing record will remain open for 5 
calendar days to allow statements, questions and extraneous 
material for the record, subject to length limitations in the 
rules.
    Good afternoon. I would like to thank Chairman Poe for 
calling this hearing. It is such an important hearing to have 
in today's climate. And Ranking Member Keating, Ranking Member 
Sherman, and all other members of the subcommittee for 
gathering today to continue working on one of the most urgent 
security threats facing the United States.
    As we will hear from our witnesses today, the danger North 
Korea poses to the world is more than just its rogue nuclear 
program and ballistic missile brinksmanship. Pyongyang develops 
other weapons of mass destruction and backs them with 
significant conventional military capabilities.
    As his pursuit of chemical and biological weapons shows, 
Kim Jong-un commands tools of indiscriminate mass murder beyond 
nuclear weapons, and U.S. policy must be responsive to these 
threats as well.
    North Korea, one of only 6 countries that has not signed 
the Chemical Weapons Convention, is believed to have stockpiles 
of thousands of tons of chemical weapons, including sulfur, 
mustard gas, chlorine, sarin, and VX, some of the worst 
chemicals that mankind has devised. These agents could be 
delivered by a variety of North Korean weapon systems, notably 
the massed artillery deployed near the DMZ which would place 
Seoul at extreme risk.
    Experts believe North Korea would not hesitate to use such 
tactics as a way to make up the deficiency in its aging 
military and that such an attack could feasibly result in 
millions of civilian casualties in South Korea.
    Recent reports have also highlighted North Korea's 
continuing work on another longstanding WMD program, the 
production of biological weapons, including anthrax and 
smallpox. It has been known for some time that North Korea 
possesses the capability to produce anthrax for military 
purposes, and just last month, a Japanese newspaper reported 
that North Korea has begun experiments to load anthrax into 
ICBMs. Tellingly, this assertion is reiterated in the 
administration's recent national security strategy. The 
frightening truth is that we already have at least one data 
point to show that North Korea is ready and willing to use such 
horrific weapons to accomplish its goal.
    In early 2017, we all remember North Korean agents 
assassinated Kim Jong-nam, the half brother of Kim Jong-un, 
with VX nerve agent in Malaysia. This operation proved to the 
world not only that North Korea has access to chemical lethal 
weapons, but also the willingness and the expertise to 
transport and apply them in a targeted and sophisticated 
manner.
    Partly in response to this killing, the White House in 
November announced that it was redesignating North Korea as a 
state sponsor of terrorism in a large part due to Judge Poe and 
other members of this committee. An overdue step to remind the 
world that Kim's unlawful regime is an international pariah. 
But the threat remains.
    To backstop its asymmetric capabilities, North Korea also 
maintains the world's fourth largest standing army, with over 1 
million personnel, accounting for almost 5 percent of its total 
population. North Korea keeps its substantial conventional 
forces in a forward-deployed posture, keeping Korea and also 
Japan under constant threat.
    For example, even conservative estimates place hundreds of 
North Korean artillery tubes within range of Seoul, able to 
rain thousands of shells per minute down on the metropolitan 
area. These weapons could inflict enormous costs on South 
Koreans and the 230,000 Americans living in South Korea. 
Combined with chemical or biological payloads, the cost would 
be unimaginable even in the absence of nuclear weapons.
    North Korea's conventional, chemical, and biological 
weapons raise a number of questions that are too often 
overlooked in the congressional debate over our policies toward 
North Korea. North Korea's investment in these weapons may 
increase the cost of potential contingency and constrain U.S. 
strategic planning. They may give Kim Jong-un additional 
strategic options to escalate a conflict without using nuclear 
weapons and provoking regime-ending war.
    If North Korea truly wants to rejoin the international 
community in a meaningful and lasting way, the Kim regime will 
have to bring something to the negotiating table. Perhaps the 
regime's chemical, biological, and other weapons aimed solely 
at civilian populations might be a fitting place to start as we 
work toward the goal of full denuclearization.
    I look forward to working toward answers to these and other 
questions, and I thank the panel for joining us today to 
discuss this concerning topic.
    And without objection, the witnesses' written statements 
will be entered into the hearing record. And I now turn to the 
ranking member on TNT for any remarks he may have.
    Mr. Keating.
    Mr. Keating. Thank you, Mr. Chairman.
    Mr. Yoho. Take it away.
    Mr. Keating. Thank you, Mr. Chairman. Thank you for holding 
the hearing today. One of President Obama's outgoing warnings 
to President Trump was about the threat posed by North Korea. 
And here we are.
    Today we are not talking about the nuclear threats. It is 
axiomatic, almost, the question theoretically that was posed to 
one of our first ladies once, saying, ``Other than that, Mrs. 
Lincoln, how did you enjoy the theater?'' But there are, 
indeed, other real threats posed by North Korea's non-nuclear 
weapons. As tensions rise and the rhetoric heats up about 
military options, we need to be having an honest, realistic 
conversation about the types of threats that we are facing from 
North Korea and the full range of options we must consider 
given the very real risk we face.
    Frankly, reports that the administration is considering 
<greek-l>quote, unquote,  deg.``a bloody nose strategy in North 
Korea'' is deeply concerning. War is not a matter of bloody 
noses. It is human lives, constant uncertainty, long-term 
challenges in our investments to achieve some amount of 
security. And we know all too well that this investment can 
easily take a generation because security is not just fighting 
the battle and then going home. It is also everything that 
comes afterwards. We know this because we are fast-approaching 
20 years of military engagement in Afghanistan and Iraq. That 
is because the instability produced by war is itself a threat.
    The chemical, biological, conventional and other non-
nuclear threats posed by the North Korean regime are serious 
indeed. And it is our duty to come together in Congress to best 
ensure the safety of the American people. Whether we like it or 
not, if the President launches an attack on North Korea, we 
will need to make a decision on whether we will give him the 
authority to continue that military engagement.
    U.S. Pacific Commander Admiral Harris, who I had the 
opportunity to meet with when I visited the Pacific and South 
Korea roughly 1 year ago, was one of those voices we should 
listen to closely when it comes to formulating U.S. strategy in 
North Korea. So when Admiral Harris categorized diplomacy as 
the most important starting point, we should be taking a hard 
look in Congress at whether our diplomatic options truly are 
being pursued as aggressively as we can. Because protecting the 
American people does not automatically mean sending them to 
war, or worse yet, all but inviting an attack from a hostile 
regime.
    Before jumping to the military options, we need to be clear 
on what they look like and most importantly, the full range of 
diplomatic options that we have available to us.
    We need to be clear on our options because the options we 
choose will matter tremendously to our women and men in uniform 
and to their families and friends. It will matter to families 
living across the United States wondering if they might live 
within the blast radius where North Korea has the ability to 
strike here at home, and it will matter to the generations 
forced to clean up the mess left behind by what would 
inevitably be a long and complicated conflict on the Korean 
Peninsula.
    North Korea is likely not to go its way and follow 
international law on the use of chemical and biological 
weapons. It was not so long ago that another brutal regime used 
chemical weapons in the midst of a conflict. What does it mean 
to operate on a battlefield where chemical and biological 
weapons could be in play? What do the civilian casualties look 
like? Can these weapons be secured in the midst of an armed 
conflict, and if not, what types of the proliferation risks 
should we consider?
    All this, in addition to the concerns presented by North 
Korea's conventional forces. What could such a conflict breed 
in terms of the spillover effects into other countries. A 
military option should only be used when necessary and once 
there are no other effective options left on the table.
    So I am looking forward to discussing our other options 
today, our diplomatic options. And I thank the panel for being 
here to help us in that endeavor.
    Congress has already passed sanctions to deal with the 
threats from North Korea, so where is the diplomatic follow 
through? Where is our State Department? Where are our 
Ambassadors? The United States still does not have an 
Ambassador to South Korea in place. Our allies are not 
reassured by this administration's actions, and we are not even 
at the table as North and South Korea negotiate, even though 
our own security is also very much at stake.
    These are serious issues and we have very little 
information to understand and properly counter these threats. 
So we need to take stock of what we do have and what we have to 
do. We have long had strong allies and partnerships in South 
Korea, Japan and so many other countries that are similarly 
concerned by the threats posed by North Korea. When we face 
serious threats of this nature, such as nuclear threats from 
Iran, what have we done in the past? We worked closely in a 
coalition of partner nations.
    The women and men of the State Department have long been 
some of our strongest assets in representing the United States 
at the table to negotiate peace and to make it possible for 
Americans to sleep soundly at night. Under this administration, 
they have weakened our State Department and confused our 
allies. We should be concerned that once a leader, the United 
States is rapidly becoming a pariah on the international stage, 
and that does not make us safer.
    So I appreciate the witnesses being here. I hope to hear 
from you on what we could be doing, even in light of the 
challenging circumstances and alarming threats that we face.
    I yield back.
    Mr. Yoho. Thank you, Mr. Keating. Words well spoken, well 
meaning, and hopefully well taken as we go through this.
    Being the chair of the Asia-Pacific Subcommittee, and Judge 
Poe is not here, I am going to turn to the ranking member, good 
friend, Mr. Brad Sherman from the State of California, who is 
the ranking member of the Asia-Pacific Subcommittee. And it is 
important that everybody knows that the two committees have 
come together on this important topic.
    Mr. Sherman, thank you.
    Mr. Sherman. Thank you. And for many years our policy on 
North Korea has focused on its nuclear program. We have to make 
sure that we don't stumble into war. And I am concerned about 
the rhetoric that sounds like adolescent boys at a junior high 
school. The idea that we could bloody the nose of our adversary 
without risk to the Korean Peninsula and the world is absurd.
    In today's hearing, I look forward to hearing from our 
panel on chemical, biological and conventional weapons, but at 
least in my opening statement, I am going to also focus on the 
nuclear.
    I have cosponsored five bills, many of us have, that 
sanction and condemn North Korea. But I have also cosponsored 
the No Unconstitutional Strike Against North Korea Act, because 
we should not, by presidential fiat, be conducting military 
strikes and going to war with North Korea.
    We need a strong military to deter North Korean action, but 
we also need diplomacy. And diplomacy starts with reasonable 
objectives. I am old. I was here when North Korea had as one of 
its objectives just getting a nonaggression pact with the 
United States. We turned them down. Vice President Cheney 
imagined that we could have a righteous invasion of North 
Korea. Bad idea now. Bad idea then.
    We might very well look at the freeze-for-freeze 
initiative. We could suspend our military exercises in return 
for a verifiable freeze on North Korea's nuclear and missile 
testing and production--and I want to emphasize the word 
``production'' because I don't think China has gone that far in 
its proposal--of both nuclear material and missiles, but also 
chemical and biological materials.
    To reduce the biological threat, we can ask North Korea to 
affirm that it will remain in the Biological Weapons 
Convention. We should encourage it in public health and 
agricultural dialogues to limit bioweapons. And as suggested by 
one of our witnesses, push a no-first-use pledge and give one 
ourselves with regard to chemical and biological weapons use. 
We need to prepare for chemical, biological, and nuclear 
weapons use in the Korean Peninsula because it may indeed 
happen.
    The idea that you can't reduce casualties from a nuclear 
strike because a nuclear strike is beyond our imagination, in 
its horror, is to say that there is no difference between 
100,000 casualties, 1 million casualties, and 5 million 
casualties. Likewise, when we look at the chemical threat from 
North Korea, we estimate it to have 2,500 to 5,000 tons of 
chemical agents. We see that the distribution, not only to our 
troops, but to relevant Korean civilians, of gas masks and more 
sophisticated countermeasures might well be the investment, not 
because it would render us invulnerable or our allies 
invulnerable to such an attack, but only because it would 
reduce casualties.
    Finally, two other points I want to make. One is, North 
Korea may soon be interested in selling its nuclear weapons or 
chemical or biological weapons. Roughly 10 years ago Israel 
destroyed a Syrian nuclear facility which seemed to have 
Iranian participation. That was all North Korean technology.
    North Korea will not currently sell its nuclear weapons 
because it needs a certain number of weapons to defend itself 
from us in their mind. But they will quickly in 1 year, 2 
years, 3 years, get to the point where they can afford to sell 
one or more nuclear weapons. They won't sell for a cost that a 
terrorist group can afford, but sovereign states can indeed 
produce a billion or several billion dollars, if that is the 
asking price.
    We need to work with China to make sure there are no 
nonstop flights between Iran and North Korea. I spoke to the 
President about this, President Obama about this, and he 
assured me that we were checking ships, but we have no way of 
stopping planes. China, however, can require refueling of any 
plane between those two countries.
    Second, we have to be willing to risk our trade 
relationship with China to get a level of cooperation from 
China on this issue that goes beyond the foreign policy 
decision that they have made. And if we are not willing to do 
that, then we are putting the profits of entities of Wall 
Street above the security of the American people. It is not 
something we haven't done before, but we continue to do it when 
it comes to the Korean issue.
    And I yield back.
    Mr. Yoho. Thank you for your comments. Next, we will go to 
Mr. Chabot, who used to chair the Asia-Pacific Subcommittee, 
the previous chairman. Thank you, sir.
    Mr. Chabot. Thank you, Mr. Chairman. And you are doing a 
fine job of it, maybe not as good as I did, but really good. 
No, just kidding.
    It was mentioned that we are not a part of the talks 
between South Korea and North Korea, and that is true. But I 
would argue that those talks are--it is blackmail, it is a 
fraud, it is a sham, in my view. South Korea is concerned that 
North Korea is going to screw up the Olympics for them and 
North Korea is going to get everything they can out of this, as 
they always do. We have had previous administrations, both 
Republican and Democrat, who have been suckered by the North 
Koreans time and time again.
    They promise to give up their nuclear program. We give them 
food, we give them oil. And it doesn't matter whether we are in 
six-party talks or whoever, all of the countries that deal with 
North Korea fall into line. We give them a bunch of stuff. They 
promise to behave. They don't behave.
    And now they have nuclear weapons which now can threaten us 
right here in the continental United States. They have chemical 
and biological weapons programs that they are proceeding for 
their conventional weapons programs, whether it is tanks or the 
artillery system that they have and how they can target Seoul, 
and us for that matter. It is horrendous that we have, we being 
the rest of the world, have allowed them to get to this point.
    The key to solving this whole thing, in my view, was/is 
continues to be China. China talks a good game. They act like 
they are going to do things, they are going to cooperate and 
rein in, and they get embarrassed by the regime, the North 
Korean regime on occasion, but they are not going to rein them 
in. They are helpful to them. They keep us and our allies off 
balance. And so even though they act like they are very 
disappointed, in general what North Korea does benefits China 
as much as it keeps them off guard to some degree.
    China is the key, and as long as China believes that we are 
not going to be serious with them about cutting them off 
basically, they benefit one heck of a lot more from trade and a 
relationship with us than we do from them. And until we get 
serious--previous administrations never got serious with China. 
I think there is at least the chance for this administration.
    I do believe this President, you know, went into it being 
very tough with China. And he listened to the Chinese 
leadership. And I think he has been too gullible, really, in 
believing what they are saying, and they pump him up and how 
great he is. And he listens, unfortunately. And that really is 
unfortunate, because this administration either gets tough with 
China who can lean on North Korea and get him to back down, or 
they don't.
    In which case, we have a nuclear North Korea now and one of 
these days something will happen, which the world will regret.
    So we are way past too late, but let's hope too late isn't 
here yet. And I yield back.
    Mr. Yoho. Thank you for those comments.
    Next we will go to Mr. Connolly from the State of Virginia.
    Mr. Connolly. Thank you, Mr. Chairman. I echo what Ben 
said. I was in Korea last year and went to the DMZ. And what 
really struck me was that the DMZ is to Seoul what Dulles 
Airport is to Washington, DC. It is virtually that close.
    Mr. Yoho. Yeah.
    Mr. Connolly. And so we need to be careful when we saber 
rattle, when we tweet, when we throw out threats, because it 
unsettles that part of the world. We have to be careful about 
how that is interpreted by the North Korean regime and how it 
can sometimes inadvertently strengthen that regime and its 
resolve to develop nuclear weapons. But most importantly, that 
there are 25 million people who live in Seoul who will be the 
first victims of a violent outbreak. The second victims will be 
in Japan.
    And so we need to be cognizant of that. That isn't to say 
don't be strong. Is it to say, however, we need to look at 
carrots as well as sticks, points of leverage to try to engage 
North Korea, even at the 11th hour, to try to get them to 
desist. And I think that ought to be the paramount goal of U.S. 
policy and the region, stay strong, but be willing to be 
engaged.
    Thank you, Mr. Chairman, for holding this hearing.
    Mr. Yoho. Thank you. Next, we will go to Mr. Joe Wilson 
from South Carolina.
    Mr. Wilson. Thank you, Mr. Chairman. The totalitarian 
regime in North Korea continues to threaten the United States 
and our allies by testing nuclear capabilities and intermediate 
to long range intercontinental ballistic missiles. We will not 
and should not tolerate the escalation by this rogue regime in 
North Korea.
    I am encouraged by the leadership of President Donald Trump 
and Ambassador Nikki Haley, Secretary of State Rex Tillerson, 
with Deputy Secretary of State, John Sullivan, for their 
commitment to demonstrating peace through strength, clearly 
expressing their commitment to keeping all options on the table 
when it comes to addressing the threat from North Korea, 
whether it be military, diplomatic or economic. We have a 
responsibility to protect families across the globe, but 
especially those of America, South Korea and Japan from this 
existential threat.
    As one of only two Members of Congress to have visited 
Pyongyang, I saw firsthand North Korea's fragile economy. 
Buildings without electricity, highways that were virtually 
empty, inflammatory propaganda posters threatening death to 
South Koreans and Americans, and an international airport that 
was scarcely used. When contrasted with the vibrant capital of 
South Korea, it is clear that the communist regime of North 
Korea is fragile. This is why I believe the sanctions on North 
Korea promoted by President Trump have been successful, 
resulting in recent talks between North and South Korea and 
North Korea agreeing to attend the Winter Olympics for the 
first time since 2006.
    I am grateful that President Trump is heeding the advice of 
military leaders, led by Secretary of Defense James Mattis, in 
taking the threat from North Korea seriously. The United States 
is fully prepared to handle this threat. And with the 
leadership of President Trump, Ambassador Nikki Haley, House 
Republicans and Foreign Affairs Committee Chair Ed Royce, we 
will be even more prepared in the future.
    I yield back my time.
    Mr. Yoho. Thank you for those comments. Next we will go to 
Mrs. Ann Wagner from Missouri.
    Mrs. Wagner. Thank you, Mr. Chairman. I want to thank both 
chairmen for hosting this important hearing today. Despite 
international pressure and a host of new sanctions, North Korea 
continues to develop nuclear weapons, but this should not be 
our only focus. We know that North Korea is not only 
miniaturizing a nuclear warhead for placement on a ballistic 
missile that can reach the continental United States, but also 
developing offensive chemical and biological weapons. These 
weapons are agents of terror, and change how we approach 
strategies to confront the North Korean regime.
    Meanwhile, our partners in the west appear blind to the 
chemical weapons attacks by enemies of freedom across our 
globe. Just this past weekend, there were reports of a chemical 
gas attack in Syria that injured civilians. The United States 
must take a clear stand against the use of chemical and 
biological weapons and find pathways to disrupt North Korea's 
weapons of development. I look forward to your testimony and 
the questions that will ensue.
    I thank you, Mr. Chairman.
    I yield back.
    Mr. Yoho. Thank you. I appreciate your comments. Next we 
will go to Mr. Dan Donovan from New York.
    Mr. Donovan. Thank you, Mr. Chairman. With so much focus on 
North Korea's growing nuclear weapons program, this hearing 
brings to light an alarming aspect of North Korea's arsenal 
that is ignored in the public discourse.
    North Korea has a disquieting stockpile of conventional, 
chemical, and biological weapons which could proliferate to 
terror organizations and pose a threat to our homeland. I held 
a hearing on this topic just last month as chairman of the 
Homeland Security Subcommittee on Emergency Preparedness 
Response and Communications. So the information that we will 
gather here today will be enormously helpful for our ongoing 
Homeland Security activities.
    According to public documents and the Congressional 
Research Service, the U.S. may need to deploy up to 700,000 
troops in the event of hostilities on the Korean Peninsula. 
That is several times more than the troop levels we deployed in 
Iraq and Afghanistan. Further, the Pentagon estimates that 
20,000 civilians in South Korea alone could die each day of a 
war all before the use of nuclear weapons by North Korea.
    This is an incredibly dangerous situation, and that is why 
I am eager to learn from today's hearing. What we hear today 
will be useful to foreign policy, military preparedness and 
homeland security. It is our role as Members of Congress to 
apply this knowledge to strengthen America's defenses. And I 
thank the witnesses today for sharing their expertise with this 
panel and look forward to hearing your testimony.
    Thank you, Mr. Chairman.
    Mr. Yoho. Thank you for your comments. Mr. Garrett from 
Virginia.
    Mr. Garrett. It is 2018, and we are shocked as a Nation to 
learn that slavery is still practiced in areas of the world, 
and yet, a player on the international stage and in the 
spotlight, North Korea is in the business, as it were, of 
literally selling its citizens into slavery. With this being 
the case, can we have any doubt that North Korea would engage 
and employ weapon systems that would wreak havoc upon civilian 
populations? In fact, by my understanding, the population of 
Seoul is roughly 8 million. The metro area is closer to 24 
million.
    And having spent time as a fire supporter and understanding 
the proper employment of cannon rocket and missile fires, and 
understanding history and the fact that two-thirds of all 
combat casualties inflicted by the United States military since 
the Civil War were inflicted with indirect fire, 20,000 
civilian casualties a day seems mild.
    And the question as to whether a regime that would sell its 
own people into slavery to line its thinly-lined pockets would 
use these weapons against foreign civilians seems not to be a 
question at all. But I think these very people who we seek to 
protect in the interest of humanity and human rights are the 
key, and I would look forward to hearing from you how the 
individuals who might employ these conventional weapon systems 
might be targeted so that we might see a better humanitarian 
circumstance and a safer world for all in Korea and beyond. 
Thank you.
    Mr. Yoho. Thank you for your comments. Mr. Dana Rohrabacher 
from California.
    Mr. Rohrabacher. I have been listening to everyone's 
comments. I had to grab a sandwich. That is all I've had all 
day. Let me just note just some reaction to some of my 
colleagues.
    With all due respect, we are talking about the worst, God-
awful dictatorship in the world. And we are finding our time, 
however, our focus on attacking the President of the United 
States. Now, I don't care. This guy is our President. Yeah, he 
has got some eccentricities. You think you are going to make 
war any less by attacking him instead of the enemy, instead of 
this guy who has murdered his own family and murdered countless 
people to maintain power in Korea? No.
    These insults to our President, we should know when to make 
them and when not to. This is not the hearing to make those, 
especially considering the fact that what we have now is this 
very same communist dictator in South Korea talking about how 
to cooperate at least with the Olympics. Seems to me, the 
President calling him ``rocket man'' and ``I have a bigger 
button to push than he does,'' maybe had the positive impact, 
because that is what happens with gangsters. If you deal with 
them forcefully and you put them down, they will respond to 
that.
    Let me just note, the Democrat response when I first came 
here, which was a long time ago, during the Clinton 
administration, what was their response? Their response was to 
give $4 billion in order to curry favors with that dictatorship 
in North Korea. We gave them $4 billion worth of fuel. What do 
you think they used that $4 billion for? That is where they got 
the money to develop their nuclear weapon right now.
    Yeah, of course, people attacking our President even after 
the last President gave $150 billion to Iran. Oh, yeah. No, I 
am sorry. This was not the place to attack the President of the 
United States. And yes, we should be able to be critical of 
policy. But everybody knows his eccentricities and personality. 
You are not going to do any good for our country at the cause 
of peace in a situation like this, that will make sure that the 
dictatorship in North Korea knows that our President doesn't 
have support.
    Mr. Connolly. Mr. Chairman.
    Mr. Yoho. Yes, sir.
    Mr. Connolly. Given the fact that my friend from California 
just went way over time, I would ask 30 seconds to respond?
    Mr. Yoho. I would rather wait till the end. I would like to 
get to the witnesses for the respect of them.
    Mr. Connolly. Well, the gentleman has said----
    Mr. Rohrabacher. I would request that he be given the extra 
30 seconds to refute me. He always does.
    Mr. Yoho. We will do 30 seconds.
    Mr. Connolly. I thank my friend.
    Mr. Yoho. We need to get on for the----
    Mr. Connolly. I thank my friend.
    Mr. Yoho [continuing]. Benefit of the witnesses.
    Mr. Connolly. I thank my friend. I find it ironic that in 
the midst of criticizing people for criticizing Mr. Trump, my 
colleague then goes on to criticize previous Presidents, all 
Democrats.
    I would simply assert that in a democracy, we get to 
criticize an administration. And thank God for that. That is a 
right not allowed in the North Korea regime. It is one still 
allowed here. And I, and my colleagues on this side of the 
aisle, intend to exercise it.
    Thank you, Mr. Chairman.
    Mr. Yoho. Thank you for pointing that out because around 
the world we see so many people don't have that voice of 
dissension, and that is something we are blessed with in this 
country.
    Any other members seek recognition?
    Hearing none, we will go to our witnesses. Starting with 
the panel, Dr. Anthony Cordesman is the Arleigh A. Burke Chair 
in Strategy at the Center for Strategic and International 
Studies. He previously served in the Office of the Secretary of 
Defense and the State Department. And we thank you for your 
long public service to this country.
    Mr. John Parachini. He is the director of Intelligence 
Policy Center at RAND Corporation. Previously, Mr. Parachini 
served as executive director of the Washington Office of the 
Monterey Institute of International Study Center for 
Nonproliferation Studies. I look forward to hearing from you 
and all the other ones.
    Mr. Anthony Ruggiero is the senior fellow at the Foundation 
of Defense for Democracies. Prior, Mr. Ruggiero was a foreign 
policy fellow for Senator Marco Rubio, served in the Department 
of Treasury and State.
    And Ambassador Bonnie Jenkins is the founder and the 
president of the Women of Color Advancing Peace, Security and 
Conflict Transformation. Ambassador Jenkins previously served 
as the Coordinator for Threat Reduction Programs in the Bureau 
of International Security and Nonproliferation at the State 
Department.
    I want to thank all of you for being here, for taking your 
time to educate us. And out of these meetings come policy 
recommendations and ideas that we have seen implemented. And so 
these are very important hearings.
    And with that, you guys, I think, have been here enough to 
know how the light system works. You got green, yellow and red. 
Push your button before you speak so the microphone is on and 
Dr. Cordesman, we will start with you.
    Thank you.

 STATEMENT OF ANTHONY CORDESMAN, PH.D., ARLEIGH A. BURKE CHAIR 
  IN STRATEGY, CENTER FOR STRATEGIC AND INTERNATIONAL STUDIES

    Mr. Cordesman. Thank you, Mr. Chairman, ranking members, 
members of the committee. We are talking about a range of 
threats which include two massive sets of conventional forces. 
Each of which is equipped to fight unconventional wars in very 
different ways and in unpredictable scenarios.
    We have biological capabilities in North Korea. I would 
caution the committee that almost all of the open-source data 
on agents, quantities, manufacturer and delivery systems are 
extremely unreliable. And that you should consult intelligence 
sources because all of what you see is, shall we say, 
inventive, in ways that are perhaps discouraging.
    But certainly, North Korea is moving to the point where it 
can get biological weapons with nuclear lethalities. It can use 
infectious biological agents. The days in which you could 
control biological agents, I think, quite frankly are over. The 
Australia controls, which once were controls, are now more of a 
shopping list in a cookbook in an international environment 
where very small and dual facilities can be rapidly converted.
    Chemical weapons lethality is perhaps much more 
questionable than many people realize, but it is also something 
you can easily manufacture and deliver. Within the other areas, 
you have precision-guided ballistic weapons, unmanned aerial 
vehicles, and cruise missiles. These can be used to destroy 
critical infrastructure, critical movement capabilities and 
communications capabilities. And in Korea, this presents very 
special problems, both because Seoul and the greater Seoul area 
is so close to the DMZ and because this is such a fragile 
country in comparison with many other countries. There also is 
cyber and that, too, presents a problem.
    I think the point that I would make that the committee 
needs to consider, casualties and direct casualties are not a 
real measure of what war can be. What we have seen in Syria, 
Afghanistan, Yemen, and Iraq shows that war fighting can have 
massive human consequences without using weapons of mass 
destruction.
    In the case of Syria, you have seen it move something like 
a third of the population, losing its home, its businesses, 
casualties which we can't count because of the number of people 
who have died. One of the members mentioned the population of 
Seoul. It is actually over 25 million in the greater Seoul area 
and over 10 million in the urban area. It is concentrated in 
areas near a massive set of artillery emplacements. The models 
I have seen generally only focus on two artillery.
    I have no idea where the lethality data come from. Quite 
frankly, they don't make any sense, because there are multiple 
rocket launchers with far higher volumes of fire and they can, 
at least in theory, use chemical and biological weapons. When 
you fire into a city, remember people panic. They run and they 
go outside the city. And Korea is a mountainous area with none 
of the spread and surplus facilities to absorb people we are 
used to.
    There are five other urban cities which are critical 
targets. You are talking about essentially three major 
container ports. There are four major airports. Each of those 
is absolutely critical to a country which is dependent on 
imports, which cannot provide its own fuel and generate its own 
electricity without sustained traffic. And which bears no 
resemblance to the Korea of the Korean War.
    Unconventional wars that move into these areas, disrupt the 
economy, make people panic, create refugees and IDPs, are as 
much a risk as weapons of mass destruction. Losing food, water 
and power can have the same effect. This is a country with the 
largest rocket and missile force in unconventional war that we 
know of. And if those become precision-guided systems, its 
lethality and war-fighting capability changes much as the use 
of advanced biological weapons. Thank you.
    [The prepared statement of Mr. Cordesman follows:]
    
    
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

        
                              ----------                              

    Mr. Yoho. Thank you. I appreciate those grave warnings. Mr. 
Parachini.

STATEMENT OF MR. JOHN PARACHINI, DIRECTOR, INTELLIGENCE POLICY 
                    CENTER, RAND CORPORATION

    Mr. Parachini. Thank you, Mr. Chairman. And I appreciate 
the committee holding this hearing on this topic.
    Examining chemical and biological weapons in this theater 
has not been done in an open hearing like this as much as it 
should be. Given the danger they pose, how they might be a 
catalyst to leading us to a nuclear precipice and indeed how 
wrong assessments of those capabilities may trigger the wrong 
response.
    There are some distressing parallels with the situation in 
Iraq. Old assessments get repeated about new information or 
there is no new information, there is considerable input from 
defectors, cooperating sources that are hard to validate. There 
are allied governments that face imminent threats and have 
reason to hedge against high consequence threats if 
capabilities exists and if they might be used.
    A key difference between the Iraq and North Korean case is 
that the North Koreans have demonstrated they have nuclear 
weapons and they are rapidly developing their ballistic missile 
capabilities. Another difference, though, is that we knew a lot 
about the past Iraqi capabilities, and then when we entered in 
2003, we actually didn't know that much of their current 
capabilities. With North Korea, we know little about their past 
and we have a very incomplete understanding of their current 
capabilities.
    But because most states with an industrial capability to 
produce pesticides have some capability probably to produce 
chemical weapons, we can be reasonably confident that North 
Korea has these capabilities and has tested and produced 
chemical weapons and has a stockpile. However, as Dr. Cordesman 
mentioned, the repeated assessments suggests that there is an 
arsenal of a range of agents and delivery systems. But these 
are the same numbers that get repeated over the last decade and 
a half. Means of delivery included artillery, rockets, 
missiles, aircraft and drones. But it begs the question that 
these same citations of capabilities have not been updated in 
the last decade and it makes you wonder about their currency.
    However, there is a new development, and that is the recent 
assassination of Kim Jong-nam. Other countries have used poison 
to assassinate regime enemies, but I think we can assess that 
this also could be a signal by this regime that we have nerve 
agent and we are willing to use it.
    Biological weapons capabilities in North Korea, the 
assessments range from a list of agents that might number in a 
dozen or more to a limited program within existing industrial 
infrastructure to mere research. The potential of these weapons 
is great. And so it bears paying very close attention to them, 
but, again, the evidence we have is indirect, circumstantial, 
based on third-party observations and South Korean Government 
information and some unclassified U.S. Government statements.
    I think the best we can say at this time is they have the 
industrial infrastructure for a biological weapons program. 
They probably have the know-how and they probably have done 
some basic R&D. The more disconcerting part that I think one of 
the members has mentioned is North Korea's history as a 
proliferator. It helped with the construction of a reactor in 
Syria. It shipped chemical weapons defensive gear to Syria, and 
indeed, it has helped with their missile program with some 
reported allegations that they have helped Syria configure 
ballistic missiles to carry chemical agent. They have also been 
a supplier of conventional weaponry to Hamas and Hezbollah over 
the years.
    There is no information that they have transferred 
unconventional capabilities to terrorist groups, and indeed the 
empirical record does not show that any nation state has done 
so. However, this remains an enduring danger that we have to 
pay attention to.
    So what can be done? Well, there are four things. We can 
expand the dual-use biosurveillance in Korea that would be 
useful for catching things like SARS and MERS as well as an 
intentional biological attack. We can help other states enforce 
the robust set of sanctions that are out there. Many states 
don't have the capabilities to enforce these sanctions. We can 
help them do that. We can expand defensive measures. Dr. 
Cordesman mentioned that.
    And finally, we can reinforce the taboo against chemical 
weapons and biological weapons by asking for a pledge from the 
North Koreans for no-first-use of these weapons.
    Thank you, Mr. Chairman, and I look forward to your 
questions.
    [The prepared statement of Mr. Parachini follows:]
    
 [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
   
   
                              ----------                              

    Mr. Yoho. And I appreciate your comments. Mr. Ruggiero.

 STATEMENT OF MR. ANTHONY RUGGIERO, SENIOR FELLOW, FOUNDATION 
                   FOR DEFENSE OF DEMOCRACIES

    Mr. Ruggiero. Thank you. Chairman Yoho, Ranking Members 
Sherman and Keating, and distinguished members of these 
subcommittees, thank you for the opportunity to address you 
today on this important issue.
    Before proceeding, it is important to state plainly, North 
Korean leader Kim Jong-un's overarching long-term goal, namely 
the reunification of the Korean Peninsula under Kim family 
rule, while Pyongyang attempts to distract Washington and the 
Seoul from this hostile intention, Kim always has his eyes on 
dominating the peninsula.
    North Korea's weapons, both nuclear and non-nuclear, are a 
means to an end, extorting concessions from Seoul and using 
nuclear weapons to limit Washington's ability to defend South 
Korea from North Korea's military provocations for fear of 
escalating the situation.
    Washington's goal is and should remain the denuclearization 
of the Korean Peninsula. And the good news is that the United 
States can still act to counter Pyongyang's weapons programs. A 
combination of deterrence and coercion should be used against 
North Korea. The strategy would acknowledge the limits of each 
of these options using them in combination to secure a 
denuclearization agreement or, failing that, to weaken 
Pyongyang in order to diminish the threat it poses.
    Deterrence is essential to an effective North Korea policy. 
Yet, American strength has not deterred North Korea from 
sharing its missile and WMD knowledge with other rogue states. 
Nor has it prevented Pyongyang's race to expand illegal 
programs or engage in countless other provocations.
    The premise of the Trump administration's maximum pressure 
policy is that coercion must complement deterrence to limit 
provocations and create leverage. That coercion should take the 
form of an aggressive and comprehensive sanctions campaign. The 
good news is U.S. sanctions have more than doubled since 
February 2016, but the real test of a renewed and effective 
sanctions program is whether new sanctions are targeting 
Pyongyang's overseas business network and the non-North Koreans 
that facilitate that sanctions of ASEAN.
    There is good news here, too. The Trump administration has 
sanctioned 103 persons since March 31st. Of whom 74 percent 
operate outside of North Korea and 25 percent are non-North 
Koreans who facilitate North Korea's sanctions of ASEAN, namely 
Chinese and Russian nationals. As the maximum pressure campaign 
has begun to show results, Kim Jong-un went back to a well-worn 
tactic of trying to drive a wedge between Seoul and Washington.
    In 2017, the only thing the United States and North Korea 
agreed on was that China's freeze-for-freeze proposal where 
Pyongyang would freeze its nuclear and missile tests in 
exchange for a freeze of U.S.-South Korea military exercises 
was a nonstarter.
    In fact, Washington clarified that military exercises were 
defensive. So there was no reason to freeze them, whereas 
Pyongyang's programs entailed violations of numerous U.N. 
Security Council resolutions.
    But with one new year's address, preying on South Korean 
President Moon Jae-in's desire for an illusion of peace during 
the Olympics, Kim changed the narrative from freeze-to-freeze 
to delay-for-nothing. For a mere promise of talks, Pyongyang 
received a delay of the aforementioned defensive military 
exercises.
    As Seoul moves into a period of negotiation with North 
Korea on its Olympics participation, Washington's policy should 
ensure that South Korean engagement in no way undermines the 
maximum pressure campaign. If there are signs that North Korea 
is only playing for time, the U.S. should urge an end to talks.
    Pyongyang and Beijing should not be allowed to violate U.N. 
and U.S. sanctions during inter-Korean talks. If at some point 
in 2018, a substantial improvement in Pyongyang's behavior 
leads to the prospect of U.S.-North Korea negotiations, 
Washington should learn from its past mistakes and insist that 
Kim Jong-un commit to denuclearize before talks begin.
    The United States must not allow Moon's desire for a deal 
and Washington's inherent need to move beyond this crisis to 
get us into another set of flawed negotiations resulting in a 
dangerous deal that locks in North Korea's weapons program.
    Thank you for inviting me to testify. And I look forward to 
your questions.
    [The prepared statement of Mr. Ruggiero follows:]
    
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    
        
                              ----------                              

    Mr. Yoho. Thank you for your comments.
    Ambassador Jenkins.

    STATEMENT OF THE HONORABLE BONNIE JENKINS, FOUNDER AND 
    PRESIDENT, WOMEN OF COLOR ADVANCING PEACE, SECURITY AND 
    CONFLICT TRANSFORMATION (FORMER COORDINATOR FOR THREAT 
   REDUCTION PROGRAMS, BUREAU OF INTERNATIONAL SECURITY AND 
          NONPROLIFERATION, U.S. DEPARTMENT OF STATE)

    Ms. Jenkins. Mr. Chairman, ranking members, ladies and 
gentlemen, I want to thank you for inviting me here today to 
speak about North Korea's DPRKs threats outside those of 
nuclear weapons. It is understandable that with the exchanges 
between the U.S. and North Korea in the past few months that 
nuclear weapons are the focus of attention regarding the North 
Koreans military capabilities.
    However, one should not lose sight of the fact that there 
are other significant military threats from North Korea. Today 
you are hearing about some of these other threats. And they 
consist of North Korea's chemical weapons, intentional 
biological weapons pursuits and the overwhelming conventional 
weapons. And we have on this panel today experts on the various 
non-nuclear threats emanating from North Korea, so I will move 
on to discussing some potential diplomatic mechanisms to meet 
those threats.
    Addressing the DPRKs threat is not a challenge that 
Washington should tackle alone. North Korean involvement in 
chemical and biological weapons programs are not in line with 
the international norms against development and use of those 
weapons and should be part of a global effort to address those 
programs.
    Few countries have any contact with the DPRK, which limits 
opportunities for diplomatic exchange. Working with countries 
that do have that type of relationship, for example, Sweden, 
can be part of a planned diplomatic effort to engage North 
Korea. Of course, the key to any negotiations on North Korea's 
weapons will require North Korea to come to the table, which is 
a significant challenge.
    All of the following ideas had that caveat in mind. On 
chemical weapons, the general goal of the international 
community should be that the DPRK destroy any such weapons 
regardless of the fact that the DPRK is not a party to the CWC. 
Any discussions with the DPRK on such weapons would require the 
engagement of the organization for the prohibition of chemical 
weapons in regional states at a minimum. The DPRK should join 
the CWC as a state party and agree to destroy any potential 
weapons with verification.
    We have witnessed with the destruction of Syrian chemical 
weapons that the international community can come together to 
assist in that process. Regarding conventional weapons, the 
primary concern is the overwhelming number of such weapons 
possessed by North Korea.
    There should be a reduction in the conventional forces and 
more equality in the numbers and types of weapons with South 
Korea as a way to reduce tensions.
    In this respect, the two sides may negotiate an agreement 
similar to the Conventional Armed Forces in Europe treaty, and 
both sides can reduce their conventional weapons to an equal 
amount and types. Such an agreement would require a permanent 
and verifiable means of destruction. The CFE can provide some 
thoughts on a way forward.
    North Korea is already a party to the Biological Weapons 
Convention, and as a result, it should not be developing 
biological weapons. Any activities regarding a biological 
weapons program should stop. Since there is no verification 
regime of the BWC, a small number of the countries including 
those in the region may agree to a verification scheme. The 
Biological Weapons Convention Implementation Support Unit 
should be a part of any engagement with additional staff and 
funding for this particular purpose.
    These options lean heavy on the diplomatic effort and 
negotiations to address the North Korean military threats. Some 
rely on existing norms that reflect the agreement by a global 
community by just the possession and use of such weapons.
    South Hem conventions are initiatives that can serve as 
examples for engaging the North Koreans. However, any 
negotiation needs an element of trust amongst the parties. 
There must be some belief that the party on the other side 
wants to discuss the issues and has something to gain by doing 
so.
    If you want North Korea to come to the table, we must 
temper our threats with real possibilities for diplomacy. In 
this respect it would be extremely challenging to convince 
North Korea to relinquish the weapons it believes it needs for 
its defenses or its domestic purposes. Moving the DPRK to join 
the international community that has already moved away from 
the development and use of chemical and biological weapons, for 
example, will take time and it will need a continuous process.
    It is also essential that the international community walk 
the walk and talk the talk of actions that we want other 
countries to do, including North Korea. We also need to find a 
way to make any successful negotiation sustainable. We have 
seen in the case of negotiations with North Korea's nuclear 
program through the years that what is considered an agreement 
continually fails.
    How do we make sure that North Korea does not go back to 
business as usual? In each situation there needs to be a 
mechanism to continue discussions and help verify that the 
North Koreans are living up to their agreements. In this 
respect, the North Koreans would need to be part of existing 
implementing bodies, treaty implementing bodies. There may be 
other options that we can do with North Korea assuming we can 
move them from being an adversary to essentially being a party. 
This will all take time and a lot of real diplomacy.
    Thank you, and I look forward to your questions.
    [The prepared statement of Ms. Jenkins follows:]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    
       
                              ----------                              

    Mr. Yoho. I would like to thank the panel for your expert 
testimony. I look forward to answering the questions.
    Dr. Cordesman, you pointed out the number that we know is 
exactly that. It is what we know. It is what we don't know that 
really scares us. The unknown. And I guess that is part of--I 
don't want to say terrorism, but that is part of a hand they 
play. You know, it is what you don't know.
    Are there other techniques that we can do to get other 
countries to come on board? When I look at what is going on, 
you know, I have got information in here, that is out there, in 
August, shipments of 30,000, 30,000 North Korean produced 
rocket-propelled grenades were intercepted on their way to 
Egypt. How concerned should we be about Egypt's secret 
arrangement to procure $23 million worth of weapons, number 
one, that is funding North Korea while they are an ally of 
ours. This is not a U.S. problem with what North Korea is 
doing. It is not a South Korean problem. It is a world problem. 
And if we have allies, especially ones that we are giving 
foreign aid to, to get them to the table, how do we find out 
more information and get everybody on the same page? Like we 
have to get a resolution to this peacefully and ideally.
    Do you have any thoughts on that?
    Mr. Cordesman. Mr. Chairman, I wish I had more optimistic 
conclusions, but a little over a month ago, I was in the Middle 
East at a time there was a supposed 40-country alliance of Arab 
states that was supposed to be cooperating and dealing with 
security issues. And quite frankly, I have never seen more 
hypocrisy at a given meeting than I saw there. I don't think 
you have any choice unless you are willing to embarrass allies 
and put pressure on countries, unless you can threaten, not 
simply sanctions, but actually intercepting known shipments of 
arms and weapons.
    North Korea is going to do anything it can to find ways to 
export, to obtain technology, import, to do, if it can, simply 
exchanging the techniques of producing systems with other 
countries like Iran. Locking that is something we can sometimes 
do in detail, but it requires an extremely aggressive approach.
    And, yes, there are European allies, there are Asian allies 
that will work with us, but those are not the countries North 
Korea deals with. And I simply would not be optimistic about 
the prospects.
    Mr. Yoho. Okay. And I would like to get some response on 
this. The agreement to destroy the chemical weapons in Syria 
was supposedly carried out and certified 100 percent by the 
world community. We realize that is not true. You know, there 
was still some left over. In fact, we just heard reports that 
the Assad regime may have used chemical weapons, including VX 
gas.
    Does anybody have any information on--is that true? And to 
think they came out--is there any proof that--is there any 
information out there that they could have come out from North 
Korea--anybody want to comment on that?
    Mr. Parachini.
    Mr. Parachini. So we are better off that chemical weapons 
were eliminated from Syria with the understanding that they had 
the possibility to both hide and make even after their 
stockpile was removed, because that meant fewer weapons that 
they could use against----
    Mr. Yoho. Do we know that they are making them, or are they 
getting them from North Korea?
    Mr. Parachini. So we don't know--even if there are--if they 
are getting chemicals from North Korea, they are more in the 
precursor nature, and they could be making new agents. But, 
remember, a lot of what we have seen in Syria are attacks using 
chlorine.
    Mr. Yoho. Right, but just recently they said that could 
have been laced with VX gas. I don't know how you do that or--
--
    Mr. Parachini. So Syria--in the Syrian complex, VX has not 
appeared yet as an agent that has been used. Sarin----
    Mr. Yoho. Sarin. I am sorry.
    Mr. Parachini. Sarin has been the nerve agent that has been 
used. But look at how they have used chlorine----
    Mr. Yoho. Right.
    Mr. Parachini. Even after they agreed to eliminate their 
stockpile, they have used a widely available industrial 
chemical as a weapon of war.
    Mr. Yoho. And that is a terrible chemical. Just one more 
question. If North Korea is serious about earnest dialogue and 
coming to the table, would you recommend signing on to the CWC, 
the Chemical Weapons Convention?
    Mr. Parachini. So I will offer a comment and then 
Ambassador Jenkins may have some thoughts here.
    Mr. Yoho. Sure.
    Mr. Parachini. North Korea is the only member of the five-
party talks--or the six-party talks that is not a member.
    Mr. Yoho. Right.
    Mr. Parachini. So it stands out. So it is to our advantage 
to press them on this issue, number one. And, number two, the 
global taboo on the use of these weapons has degraded since the 
Syrians have used chemical weapons. There is an opportunity to 
bolster that norm by pushing the North Koreans.
    Mr. Yoho. I think that is a good point. Ambassador Jenkins, 
do you have a comment?
    Ms. Jenkins. Yes, I would just agree and say that I think 
it would be good to have them part of the convention because 
then they can be part of the multilateral and international 
negotiations that go on on a regular basis. There are yearly 
meetings with the OPCW. There are activities that go on, and 
one way to help make sure that they are doing what they should 
be doing is have some kind of transparency and some kind of 
engagement. So I think that would be very helpful.
    Mr. Yoho. Thank you for your comments.
    We will go to the ranking member, Mr. Keating.
    Mr. Keating. Thank you, Mr. Chairman.
    It is clear that one thing we should do is maximize our 
soft power, that we could, and sometimes things appear, from 
the administration, to be disjointed. Let me give you an 
example. We had a new President--President Moon came to power. 
And one of the strengths we have, at least when I was there 
just a year ago, was the coalition we have with Japan, South 
Korea, and the U.S. It is at unprecedented levels. The 
cohesiveness was stronger than it ever has been. However, with 
a new President--our President threatened to pull apart the 
trade agreement with South Korea during that period. Now, how 
could that possibly do anything but hinder our ability and 
cohesiveness as a coalition together, as a fundamental 
coalition? And how damaging were those comments and the timing 
of those comments? Does anyone want to address that?
    Ms. Jenkins. I guess I would start with that. I would agree 
with you in what you are saying in terms of how those comments 
were probably received. I think one of the things that we seem 
to be lacking now is a much more coordinated approach in the 
way in which the U.S. Government is really handling a lot of 
these issues. There seems to be not as much attention for force 
coming from the Department of State and engagement of the 
Department of State and engagement of the expertise in 
discussing some issues before they are actually made and the 
policies before they are actually made and told to other 
countries.
    So I think that has created a bit of confusion with some of 
our countries out there, some of our allies out there.
    I know I often get questions regarding the way in which the 
U.S. Government is perceived regarding the State Department and 
what is coming out of the White House. And I think that we 
don't have the coordinated message. That would be helpful. It 
is good to have soft and hard power, but I think you have to 
have a way in which it is coordinated and it is seen as a 
whole.
    So I think that when you have these kind of statements that 
are made in the middle of a situation where relationships are 
going very well, it does cause countries to take a step back 
and wonder what is going on.
    Mr. Keating. Do any members of the panel think that was 
helpful, the timing and the effect of that? Thank you.
    Dr. Cordesman brought up a couple of important points, I 
think, takeaways that I had myself. We are focused on the 
nuclear issue and the missile capability. But every day on the 
border, there are scuffles, and there are potential conflicts 
that can escalate at any time. In fact, our own military 
leadership there has said that they spend an inordinate amount 
of their time just trying to tamp those down because of that 
fear. That is one point.
    The other point that might come along with those lines is, 
again, an important point looking down the road, and that is 
potential refugee problems, should they occur.
    So, Dr. Cordesman, do you want to just extend your comments 
on your perception of how really threatening those border 
issues are on a day-to-day basis? How they could escalate? And 
then, secondly, an interesting point that you did bring up in 
regards to if there is a conflict and there are refugee 
problems, that will affect China, and you know, are they 
factoring that in? Because generally China is not taking these 
issues as seriously as they should be, from our perspective, 
and that is one thing they should look at, at what happens to 
the peninsula. Doctor?
    Mr. Cordesman. I think we have--first, we need to be 
careful about the term ``border.'' We are talking about the 
DMZ, and the problem we have is it isn't just the hardened 
artillery sides near the DMZ, which go all along the DMZ. They 
are not simply near the center of Seoul. They are near an area 
with about 25 percent of the population or more of Korea just 
in the area around Seoul.
    So this is something where longer range rocket systems can 
have a major effect. And we are talking about depths of perhaps 
50 to 100 to 200 kilometers when we throw in unmanned aerial 
vehicles and cruise missiles, which are actually far better 
systems for delivering biological and chemical weapons than 
artillery is because they are slow fires and they disseminate 
in much more controllable ways.
    We also have some 25 tunnels. All of these things could 
produce a massive refugee population. And looking at Seoul and 
the greater Seoul area, there simply isn't surplus capacity, 
and it is remarkably hard for them to even move south, not in 
the numbers that exist today.
    Mr. Keating. Yeah. Thank you.
    And I yield back, but I will be following up with a written 
question, Chairman, you know, just dealing with a common thread 
of how we have to improve our intelligence in that region and 
how maybe working with the coalitions, that is something we 
should work on as well.
    I yield back, Mr. Chairman.
    Mr. Yoho. Thank you, Mr. Keating. I appreciate your 
respecting people's time, and if we have time for a second 
round, if you are still here, we will let you do that.
    I will next go to Mr. Joe Wilson, South Carolina.
    Mr. Wilson. Thank you, Mr. Chairman.
    I was grateful in September to lead a delegation to South 
Korea. Of course, we visited the DMZ. We were there in Seoul. 
We visited, in particular, Camp Humphreys. And it was really 
incredible for me to know the strong relationship we have with 
the Republic of Korea and their investments--the American 
people need to know the hundreds of millions of dollars which 
have been spent to build a world class facility there at Camp 
Humphreys, truly indicating the bond that we have between the 
people of the United States and the people of Korea.
    Another issue to me, and I would be really interested in 
finding out from each of you what your view is, has there been 
any collaboration on nuclear weapon or missile development with 
the rogue regime in Iran, between--cooperation between 
Pyongyang and Tehran?
    Mr. Cordesman. There is very good evidence of cooperation 
on missile development. There are questions among experts as to 
how much cooperation there is in specific areas, how much they 
are sharing, but it has been clear for years that there is an 
exchange of technology. It is also clear that some of the 
technology that is coming from Russia and from China has spread 
into both North Korea and Iran and is affecting the engines and 
capabilities for missile development there.
    I don't know of any evidence of cooperation in the 
development of nuclear weapons. There are reports of 
delegations being present from Iran at the test of North Korean 
nuclear weapons. Whether they are accurate or not, to be 
honest, one of the problems we have is a lot of media reporting 
sometimes claiming it is coming from North Korean--I am sorry--
South Korean military sources that is very unreliable. But to 
be honest, I am not sure you would detect cooperation in 
nuclear weapons design. It is not something where you would 
have to be public or there would be easily observable signals.
    Mr. Ruggiero. I would say, on ballistic missiles, it is 
important to remember that, on the implementation day 2 years 
ago of the Iran nuclear deal, that the Obama administration 
issued sanctions against Iranians for their cooperation--or 
their missile cooperation with North Korea. It just shows you 
the sort of level that that cooperation was at.
    On the nuclear side, I think the concern here that I have 
always had is that what each side has fits really well in the 
sense that they both use very similar enrichment programs, 
enrichment centrifuges. And Iran, likely, has a desire for both 
the design and some of the testing information that North Korea 
has gotten from nuclear tests, and Iran, of course, could pay 
for that. So that is always the main concern between Iran and 
North Korea nuclear cooperation.
    Mr. Wilson. And wasn't it proven that there was a direct 
relationship of North Korea with the nuclear development in 
Syria? But, fortunately, Israel took care of that and may have 
even dispatched some North Korean scientists on the side. So 
this is such a danger, the collaboration of totalitarian 
regimes.
    Another question I have for each of you, and it is really 
frustrating to me that China has benefited so much from trade 
with South Korea, tourism, investments by South Korea in 
developing business and industry and opportunity for the people 
of China. On the other hand, DPRK, the Democratic People's 
Republic of Korea, is simply a dependency of the People's 
Republic. Why would they maintain such a dependency when they 
can see the benefits of working with the Republic of Korea?
    Mr. Ruggiero. Well, I think, you know, I think the 
relationship in that region is interesting. I would also add 
that the Chinese always criticize unilateral sanctions until 
they use them. And, of course, they used them against South 
Korea, really to their own detriment I think. I think that the 
Chinese did not win in that. I think the Chinese are realizing 
that. I think the record on sanctions is mixed. The Chinese are 
willing to go after North Koreans inside of China, but they 
still remain unwilling to go after their own nationals that are 
aiding North Korea. And that is really--and Russia does that, 
and it is the same thing with Russia as well on North Korea 
sanctions. So that is really the critical area that we need to 
get the Chinese to move toward.
    Mr. Wilson. Thank you very much. My time is up.
    Thank you, Mr. Chairman.
    Mr. Yoho. All right. Next, we have Mr. Gerald Connolly.
    Mr. Connolly. Thank you, Mr. Chairman. Isn't my timing 
perfect? Yeah, perfect. And I have been watching and listening 
upstairs, so thank you.
    Ambassador Jenkins, you talked about using hard power and 
soft power. I was making the same point in my opening remarks.
    Could you elaborate a little bit? I mean, what is the soft 
power available to us that could be efficacious?
    Ms. Jenkins. Well, it is interesting you use the word 
``power'' in the situation of North Korea because we are still 
limited in what we can do in terms of soft power. But I think 
there is a lot that we have not yet explored. I think, for the 
most part, the situation with North Korea in that region has 
been very much a bilateral relationship with the U.S. working 
directly with each country, and we have worked very much 
regionally in trying to resolve the issues there.
    I think there are other options or other possibilities for 
working with more countries to try to see if there are ways in 
which we could address some of these issues. All of the things 
we are talking about today, whether it is chemical weapons or 
biological weapons particularly, are issues that are of a 
concern to the international community. They are issues that, 
as we have said already--there is international norm against 
the use of those weapons and the development of those weapons.
    So I think that there are options to try to see how 
countries can start to work together to see how they can 
address the issues with North Korea. Of course, trying to make 
sure first of what they actually have, but also trying to see 
if there is a way that countries can work together on that 
issue.
    Mr. Connolly. So one soft power would be sanctions, 
correct?
    Ms. Jenkins. Yeah.
    Mr. Connolly. Mr. Ruggiero, Governor John Kasich wrote a--
Governor John Kasich wrote an op-ed piece in which he said we 
haven't used all the soft power with respect to sanctions that 
we could have. And he cited things like, you know, more indepth 
banking, ties and relationships getting really tough on that. 
He talked about insurance for Merchant Marine fleets, so that 
shipping suddenly becomes vulnerable because we are denying 
them insurance, if they are going back and forth to North Korea 
and the like.
    Do you believe we still have leverage that is meaningful 
that could persuade the North Koreans it is worth pausing, if 
not rolling back, their nuclear development program, because 
that is really the object here?
    Mr. Ruggiero. Right, I do. I think this administration has 
gone after China, whether it is firms or banks or individuals, 
seven times last year, but they are still pulling back. They 
are pulling their punches. And I think part of that is because 
they likely fear Chinese retaliation. When it comes to North 
Korea, you know, I take your question as, you know, how can you 
affect the revenue flows? And the good news here is that it 
looks like, from the examples we have more recently, a lot of 
this revenue is inside of China, so you can start to affect 
that. And then North Korea uses that for what I like to call 
three purposes, military, and obviously the security sources, 
the weapons programs, and their elites. And right now they get 
to rank those one A, B, and C. From my perspective what we have 
to do is rank them 1, 2, and 3 because all of them are key to 
Kim's survival. And we are not talking about regime change, but 
we are talking about changing the calculus here.
    Mr. Connolly. Right.
    Mr. Ruggiero. And I think, you know, going after Chinese 
banks, not cutting them off from the U.S. financial system or 
sanctioning--or freezing their assets, but using regulatory 
fines, like we did against European banks in the Iran sanctions 
context.
    Mr. Connolly. Which is a model. I mean, that worked.
    Mr. Ruggiero. Right.
    Mr. Connolly. Apparently that worked. Mr. Cordesman and Mr. 
Parachini, and I have got a limited amount of time, but what is 
your take on how much leverage we really have with respect to 
Chinese behavior? Can we really bring the Chinese to cooperate 
with us in a meaningful way? I mean, we talked about soft 
power, but for example, there are North Korean restaurants and 
businesses, that is to say, businesses and restaurants run by 
North Koreans who remit profits back to China, I mean, back to 
North Korea from China. They open--they are operating with 
impunity; it is not like it is a secret. So is there more room, 
and what is the point of leverage we have over the Chinese to 
cooperate?
    Mr. Cordesman. I think there is more room, but I think we 
need to be very careful. They will not take steps which 
threaten the existence of the regime in North Korea or its 
status as a buffer. They do not have the same strategic 
interests we do. And the cooperation can never be enough to by 
itself probably force North Korea to change.
    Mr. Yoho. Go ahead. I will let you finish up.
    Mr. Parachini. So I would add that the Chinese are very 
concerned about refugee flow from North Korea to them. And I 
have met with Chinese from right over the border, and they are 
very concerned about that. And that may be an area of 
collaboration between the United States and China, but we have 
to be very careful about how we manage that because, should 
there be a collapse of the regime, China is going to be very 
eager to move first and make sure that we and South Korea do 
not move very far north.
    Mr. Yoho. Thank you.
    Next, we will go to Mr. Tom Marino from Pennsylvania.
    Mr. Marino. Thank you, Chairman.
    Mr. Parachini, am I pronouncing that correctly? That is 
Italian?
    Mr. Parachini. Parachini.
    Mr. Marino. Parachini.
    Mr. Parachini. Rhymes with zucchini, which is a good 
vegetable.
    Mr. Marino. Okay. You answered my first question that I 
wanted to ask, and let's expand on that a little bit. My 
question was--it is going to be, and I believe this is so 
because I am of member of NATO Parliamentary Assembly, and we 
discuss these issues--that China is very concerned about the 
North Koreans flowing into China because they do not want to 
have to take care of them. And North Korea is a buffer between 
the democracy of South Korea and the United States and China. 
Is that a fairly good assumption to make?
    Mr. Parachini. I think it is. And there is a longstanding 
relationship between China and North Korea and between China 
and Myanmar. And there is a special relationship there between 
those three countries that is hard to overcome given historical 
ties.
    Mr. Marino. Do you think at any point--and I don't believe 
this, but if anyone on the panel believes that North Korea 
would get into serious discussions with the U.S., do you think 
that is possible? Anyone?
    Mr. Parachini. So I would add, we need to think about this 
as a long-term game.
    Mr. Marino. It has been a long term game.
    Mr. Parachini. NATO was in place until the Soviet Union 
fell for a long time. And I think, unfortunately, on the Korean 
Peninsula, we are in the same type of game. So the question is 
how to make sure it doesn't come unraveled; we don't have a hot 
conflict. As we have seen, the North Korean leaders do pass on. 
So we have to hope for moderated change.
    Mr. Marino. No.
    Mr. Parachini. I don't think we should be thinking that 
they are going to negotiate and change. That leopard is not 
going to change its spots.
    Mr. Marino. No.
    Mr. Parachini. So we have got to figure out some way to 
navigate with them over a long term.
    Mr. Ruggiero. I mean, I would just say I guess I am the 
optimist here, which is kind of surprising for someone who 
supports sanctions. But the optimist here that, you know, when 
it came to Iran, we could have conversations about the nuclear 
deal, but I think even critics and supporters of the deal agree 
that sanctions brought them to the table.
    Mr. Marino. Yeah, but nobody was there protecting Iran per 
se. Iran--the sanctions--the economic sanctions were doing well 
until we gave them $150 billion.
    Mr. Ruggiero. Right.
    Mr. Marino. Aside from that, I don't think anyone else 
would have been coming to Iran's aid concerning sanctions.
    Mr. Ruggiero. Well, I mean, I would say--I also worked on 
Iran's sanctions when I was in the government, and I remember 
conversations about we couldn't go after their oil revenue, and 
of course, that is what happened. So I think we are talking 
about the Iran sanctions model with North Korea. North Korea--
and, frankly, China--has never really faced what the Treasury 
Department could do with North Korea sanctions, you know, back 
to the prior question.
    So I think it is, from my perspective, too, we also have to 
have a conversation of what would those negotiations look like, 
because my main concern is that those who support diplomacy 
fall back to the--well, we could get a freeze, and then we 
could go through extended negotiations, and North Korea will 
eventually denuclearize. I think you have to flip that on its 
head and insist that North Korea be committed to denuclearize 
upfront, not denuclearize, but be committed to do that upfront.
    Mr. Marino. Okay. Doctor.
    Mr. Cordesman. I think the committee should ask where North 
Korea will be in 5 to 10 years in its nuclear programs, its 
precision strike programs, and its biological capabilities. You 
mentioned a long-term game, in each case, they can edge around 
an awful lot of negotiating constraints and agreements. And 
instead of just looking at what you can do that might work, I 
think you need to take a harder look at what will happen with 
the existing way that North Korea is proliferating and 
developing its weapons and technology.
    Mr. Marino. I happen to agree with you. I think that is the 
first issue that we should tackle in any situation like this.
    Ambassador, did you have anything--comment?
    Ms. Jenkins. No, I would just--just thinking that we heard 
a little bit about some of the uncertainties about what North 
Korea really does have in terms of chemical and biological. I 
think it is a good time to think about what we can do now to 
try to get ahead of what we may or may not know about what they 
have. If in fact they are not at the point of having a 
biological weapon, for example, what can we do to try to work 
through that problem and that situation now?
    Mr. Marino. Quickly, in 2 seconds, do any of you believe 
that China will take out the ruling family in North Korea?
    Let the record reflect that no one responded to that they 
think they will take out the ruling family.
    I yield back. Thank you.
    Mr. Yoho. Thank you for your questions.
    Next, we will go to ranking member of the Asia and the 
Pacific Subcommittee, Mr. Brad Sherman from California.
    Mr. Sherman. Public sources have estimated that North Korea 
has between 2,500 and 5,000 tons of chemical agents. Does 
anyone on the panel think that a different number has more 
credibility?
    Mr. Cordesman. I think that number does not have 
credibility----
    Mr. Sherman. Because it is too low, it is too high, or you 
just have----
    Mr. Cordesman. Because it is simply a set of round numbers 
that somebody thought up at a point of time some years back.
    Mr. Sherman. Does anybody on the panel have any different 
estimate?
    Mr. Cordesman. Would you like 12?
    Mr. Sherman. Any guesstimate that it is an estimate rather 
than--okay.
    If China were to end all banking and all trade, except food 
and medicine, that is to say, exporting food and medicine to 
North Korea, how big of an effect would that have on the 
regime?
    Mr. Ruggiero.
    Mr. Ruggiero. Well, I mean, the issue here is that they 
seem to be willing to do that for North Koreans, but if they 
are not willing to do that for their own nationals, aiding 
North Korea's sanctions evasion, then it will not have the 
impact----
    Mr. Sherman. I am saying that if China used all of its 
devices to make sure that there wasn't a single dollar's worth 
of goods exported from North Korea to China, no coal, no 
whatever, no labor services, and actually enforced it, what 
effect would that have on the North Korean regime?
    Mr. Ruggiero. I think it would have a substantial impact. I 
mean, the point I made earlier is that some of these examples 
we are seeing is a ledger system between China and North Korea 
where the money resides in China. And so what you are going to 
have is North Korea not have the ability to even go to another 
country for those items that they need.
    Mr. Sherman. Should we be more strong in our statements to 
Poland and others that have accepted North Korean workers, to 
use a euphemism?
    Mr. Parachini.
    Mr. Parachini. So I think getting China to change on this 
is going to be an enduring challenge, but----
    Mr. Sherman. It is not an enduring challenge. You just put 
a 50-percent tariff on all their exports to the United States, 
and you will get their attention. But the enduring challenge is 
summoning the political will to do that in a system in which 
there--obviously, that would have an effect, but if you 
threaten to do it, they would concede. The reason we haven't 
threatened to do it is because of the tremendous power of 
corporations that--on issues of national security. But, please 
continue.
    Mr. Parachini. I think there are costs and benefits of that 
type of economic pressure.
    Mr. Sherman. There are only benefits if China blinks.
    Mr. Parachini. But I think there is the opportunity to help 
other countries enforce the sanction network that is out there 
that can be--and Poland----
    Mr. Sherman. Trim around the edges, yes. But Poland 
continues to have North Korean workers and insists upon doing 
that for another year and says that is a local rather than a 
national decision. Whether that is a violation of section 5 of 
the NATO agreement in spirit, I don't know; probably, 
technically, it is a violation of section 5 de jure.
    We have sanctioned one small bank, Bank of Dandong. We 
haven't sanctioned any of the major Chinese banks because the 
economic powers in this country say we shouldn't do it. Last 
September, Chairman Royce identified several Chinese banks, 
including the China Merchants Bank and a state-owned bank, the 
Agricultural Bank of China, as doing sanctionable business with 
North Korea. Chairman Yoho and I wrote to the Treasury 
Department deriding several Chinese banks, including the 
Industrial Commercial Bank of China, the largest bank in the 
world, and the Bank of Communications, one of the largest banks 
in the world. The executive branch has failed to pull the 
trigger.
    How--the question is, why have we put preserving the $500 
billion or $400 billion trade deficit with China and all the 
profits that generates above our national security? How do we 
get the administration to get serious with the big banks? Does 
someone have a--yes.
    Mr. Ruggiero. Right. I mean, I would say, you know, there 
was a narrative that North Korean financial activity was going 
through small Chinese banks and that these medium and large 
banks were just a conduit. But FinCEN, an element of the 
Treasury Department, put out an advisory last year, and said 
some of these accounts are actually at major Chinese financial 
institutions. So how do you do it? You do it with the 
regulatory fines. You know, I would also piggyback on the 
answer----
    Mr. Sherman. You can do it, but how do you summon the 
political will to do it?
    Mr. Ruggiero. That is the thing. I mean, these are 
mandatory sanctions passed by Congress, the same as with----
    Mr. Sherman. Nothing is illegal if 50 major businesses all 
decide it is the right policy. And just because we pass laws 
doesn't mean that the executive branch will follow them.
    Mr. Ruggiero. Right. I think this is stuck in a narrative--
not this narrative--but a narrative about whether to do it 
between doing nothing and freezing their access to New York 
when there is this interim--what we talked about in terms of 
Iran sanctions, using fines.
    Mr. Sherman. I don't think--if you only do the level of 
economic effect that we had with Iran, this is a much more 
closed society, and a regime that cares even less about its own 
people. I think you are going to have to have much tougher 
sanctions if you are going to get even a freeze of their 
nuclear program, let alone the unrealistic goals that we at 
least claim that we are trying to achieve.
    I yield back.
    Mr. Yoho. Thank for your comments. That is why tomorrow we 
are going to do the special order on China to draw out some 
these things, these inequities that they are doing, so that the 
American people know this and Members of Congress.
    Next, we will go to Adam Kinzinger from Illinois.
    Mr. Kinzinger. Thank you, Mr. Chairman, thanks for your 
leadership on this issue.
    Thank you all for being here for this very important 
subject. I think back, and I don't know if it is a good 
comparison--I think it is--to Neville Chamberlain coming back 
from his negotiations with Chancellor Hitler in a very 
difficult time, frankly, in Europe, understanding that they 
just came out of a major war, chewed up a generation with this 
prospect of another. They were understandably excited to talk 
about peace in our time. But I think, looking back at that 
moment, it is not Neville Chamberlain that we celebrated as the 
hero of that era. It is a guy like Churchill, who saw the 
gathering storm clouds. My hope is this does not turn into a 
kinetic exercise between the United States and North Korea. 
There is no doubt we would win, but nobody wants to go there.
    But I think what is important to note in all of this is 
that this is a real threat. In 1994, I think it was around then 
when President Clinton was actually looking at options to bomb 
North Korea because of this. Jimmy Carter pops up in Pyongyang 
and says he has an agreement, and we are all excited. We take a 
nice sigh of relief, and we fixed the problem. And here we are 
today in 2018 looking down the barrel, frankly, of a gun.
    And I actually give the President a lot of props for having 
really brought this to the forefront. I know it makes people 
nervous. North Korea should make people nervous. This is a 
regime that is dead set on destabilizing our allies in the 
region, all in the goal of maintaining power. But I think it 
is--we are going to have some very tough decisions to make 
here.
    I think if we go to a posture of saying we are going to 
just simply accept a nuclear North Korea, which is what some 
people, frankly, have advocated for, especially in the prior 
administration, and said we just need to build interceptors 
that can exceed their ability to launch nuclear weapons, I 
think that spells, in effect, the end of the Nuclear Non-
Proliferation Treaty for the world. How are you ever going to 
confront Iran's nuclear ambitions if we just allowed North 
Korea? What is going to happen to every other rogue regime that 
decides they want nuclear weapons? We don't have the moral 
ability to confront them in this, simply because we didn't with 
North Korea.
    So I think we have to take this extremely seriously. I 
think people that say the military option is absolutely off the 
table are doing very major damage to our diplomatic effort. As 
we all understand instruments of power, the diplomatic 
instrument of power against an adversary does not work without 
the military instrument of power there to back it up. 
Otherwise, we can do all the sanctions we want, but if they 
don't think there is a stick, the carrot has no effect.
    Let me ask Mr. Parachini, I hope I said your name right. 
Given this threat, I think we are all clear-eyed to the fact 
that North Korea has the potential to sell WMDs to the highest 
bidder. That could be a rogue regime like Syria--obviously, 
Assad has shown his desire to kill his own people--or even a 
terrorist group like al-Qaeda or ISIS. And it is no secret that 
North Korea provided assistance to Syria in building their 
nuclear reactor, which was destroyed in 2007. Given the 
situation in Syria now, I can't fathom how much worse it would 
be if Syria was a nuclear weapons state. Just because we 
haven't heard much about North Korea proliferation of other 
countries doesn't mean they still aren't interested in it. Can 
you speak to the level of interaction and potential WMD 
assistance that the Kim regime currently provides or is willing 
to provide to rogue regimes and non-state actors? What is their 
moral driver to prevent them from doing it, if in fact that is 
the answer? And which countries or groups seeking WMD 
assistance from North Korea should concern us the most?
    Mr. Parachini. Congressman, I think there has been a 
special relationship between North Korea and Syria for quite 
some time, which I think in part explains that relationship. 
Since the fall of the Soviet Union, which provided a lot of 
financing for Syrian purchases of conventional weapons and 
other capabilities, Iran has stepped in to kind of be that bank 
account. And the close relationship between Iran, Syria, and 
North Korea I think does explain some of the Assad regime's 
weapons purchases over the last decade and, indeed, some of the 
collaboration on either its missile program, the reactor that 
you referred to that was destroyed, as well as chemical 
defenses.
    On non-state actors, there again, North Korea is in the 
trenches with Iran and Syria. That is, they see themselves as 
aligned to support Hamas and Hezbollah, but there is not 
evidence that they have actually transferred unconventional 
capabilities to non-state actors. Conventional weapons, yes. 
Assistance and guidance on tunneling, yes. But in terms of 
jumping the taboo that is on about states not transferring 
that, we have not seen that yet.
    Mr. Kinzinger. Do you have a fear that it could happen 
potentially?
    Mr. Parachini. There is always that possibility. Given the 
power of these weapons, states are very reluctant to let them 
get out of control in that way. We feared that with Saddam 
Hussein, and in the end, it proved not to be the case. Is there 
a zero possibility? No. There is some possibility, but I think 
it is very low.
    Mr. Kinzinger. Thank you. Since my time is up, I will just 
say this without asking it. I think it is important that we 
look at utilizing the potential of boost phase intercept as 
well. I know this is something that has been discussed. It is 
inexpensive. Boost phase is the slowest launch phase of an 
ICBM, and I think it is imperative on the administration to 
also explore the idea of boost phase intercept as well.
    With that, Mr. Chairman, I thank you for your hospitality 
and thank you for being here, and I yield back.
    Mr. Yoho. I appreciate your line of questioning. That has 
brought up some great points.
    Next, we will go to Ms. Dina Titus of Nevada.
    Ms. Titus. Thank you very much, Mr. Chairman, ranking 
members, for holding this hearing today. With all due respect 
to my colleagues across the aisle, I think we do have to be 
concerned about the President's conflicting messages. One 
minute he is talking and bragging about having a bigger button 
than North Korea, and the next minute he is trying to take 
credit for bringing North Korea and South Korea together to 
talk about the Olympics. We just don't know what is coming out 
of the White House.
    He just now, a little while ago, gave an interview to 
Reuters in respect to the preemptive strike or the preemptive 
attack on North Korea, and this was his quote: ``We are playing 
a very, very hard game of poker, and you don't want to reveal 
your hand.''
    Well, this isn't a game. And I am from Nevada. We know 
something about playing poker. There is also a tell when you 
play poker, and his tell is some of this braggadocio that he is 
always talking about when he is going to back down or not.
    I think most of the questions and the attention has been on 
the nuclear threat, but I am glad that we are talking about the 
non-nuclear threat as well. This is especially important in 
light of the Vancouver meeting and the false ballistic missile 
warning that kind of terrorized Hawaii just recently.
    So let me ask you, Ambassador Jenkins, during your time at 
the State Department when you were the Coordinator for Threat 
Reduction Programs, what were your office's greatest assets? 
What were you able to do to prevent some of the terrorism that 
we are talking about that is non-nuclear? And would you go on 
to say and tell us, now that that position is vacant--even 
though North Korea is such a big threat, they haven't bothered 
to fill that position--how are we going to address this?
    Ms. Jenkins. Thank you for your question. The work that I 
was doing at the Department of State was really focusing on how 
to prevent WMD terrorism, and I worked closely with colleagues 
who were working on the nuclear issues. But my portfolio really 
did cover CBRN, chemical, biological, radiological, nuclear 
Issues. And most of the focus was on working amongst countries 
on how to deal with this issue. Putting funds into all types of 
programs that would prevent WMD terrorism, whether it was 
nuclear security, whether it was biological security, whether 
it was border security issues, whether it was security culture 
issues with the scientists. So we really worked hard on those 
issues.
    The thing that is important is that the type of programs 
that I worked on, you would have to be working with a country 
that is open to those type of activities. So the type of 
activities that I was working on would not be useful for, let's 
say, for North Korea right now because they are not a country 
that would be open to those kind of things. It is something 
that would happen later.
    But we were able to do quite a bit to reduce the chances of 
WMD terrorism around the world because it is a global issue. It 
is a global problem, and we have quite a few countries that are 
working on it.
    Ms. Titus. I think you also mentioned the cyber threat that 
North Korea poses. Maybe you could address that. I think there 
was a bulletin from DHS in June 2017 that North Korea was 
targeting the U.S., targeting media, aerospace, financial. We 
don't know the level of sophistication. Do you think there is 
any possibility they could, like the Russians, target 
elections?
    Ms. Jenkins. Well, I am not an expert in cyber, so I can't 
really say with any authority whether they could do it or not, 
but apparently North Korea does have some capabilities when it 
comes to cyber. So whether they could actually do what we are 
finding out the Russians have done, I am not sure, but they 
obviously are in the process of trying to strengthen their 
cyber capabilities.
    Ms. Titus. Can anybody else address that?
    Mr. Cordesman. I think that to have anything as broad as a 
major election would be beyond their current capabilities. But 
they have used cyber, at least in one case, to attack part of 
the power grid, or tried to, in South Korea. They have 
conducted offensive cyber operations, and their capabilities 
are improving. But whether they would take on anything as broad 
as the U.S., I think that certainly is beyond their current 
capabilities.
    Mr. Ruggiero. I mean, I would just say that we shouldn't 
underestimate North Korea's cyber capabilities. It was only 4 
years ago that they attacked Sony Pictures. And I think it is 
also easy to forget that when certain theaters said they were 
going to show the movie anyway, then North Korea threatened a 
9/11 style attack against the United States.
    So North Korea has advanced its cyber capabilities. Now, 
whether they would want to impact an election, I think is more 
of a--that is not what they are going for. I think they are 
going for the ability to use cyber in a pre- and wartime 
environment. And you look at some of their activities in South 
Korea, and that is clear, but also to steal money to blunt the 
sanctions impact.
    Ms. Titus. Thank you.
    Mr. Yoho. Thank you for your questions.
    Next, we will go to Mrs. Ann Wagner from Missouri.
    Mrs. Wagner. Thank you, Mr. Chairman.
    And thank you all for being witnesses today. I appreciate 
your testimony.
    Mr. Cordesman, I really appreciated your thorough review of 
North Korea's weapon activities. It was very useful to the 
committee. Do you know to what extent U.S. bases in Northeast 
Asia have security measures in place to combat infectious or 
lethal agents?
    Mr. Cordesman. I think you would have to get a briefing on 
detection at a different level because it is really, more than 
anything else now, the ability to characterize an attack that 
becomes the most critical issue. Your other problem is that 
when it comes down to what is the attack, there are so many 
different agents and so many different ways you can attack, 
that there are at least some agents which, in an island 
context, an infectious agent or so on, where it would be 
extremely difficult for anyone to conduct a defensive measure 
other than treatment. And in that case, detecting the way in 
which the weapon was developed would be critical, because if it 
is altered to have a slow gestation period, which is now 
possible, it becomes a very difficult problem. I am sure this 
issue is one that is being examined as part of a broader 
effort, but I think you are touching on some very sensitive 
issues.
    Mrs. Wagner. Mr. Ruggiero, I appreciated your summary of 
how President Trump's diplomatic pressure has caused other 
countries to end relationships with North Korea. Are there 
countries partnering with North Korea that stand out to you as 
needing special attention from the administration?
    Mr. Ruggiero. Well, beyond China and Russia, and, you know, 
it was mentioned earlier, Poland, there are certainly still 
countries in Africa I am concerned about. Even though Singapore 
has said that it will cut off its trade relationship with North 
Korea, I am still concerned about the actual implementation of 
that. Malaysia has been an issue in the past. I think the 
question here is whether the administration is willing to use 
sanctions authorities to go after companies in friendly 
countries to show an impact. I think if they did that perhaps 
once or twice, that it could have an exponential impact.
    Mrs. Wagner. I agree. Ambassador Jenkins, can you speak 
about the outcomes of yesterday's U.S./Canada meeting in 
Vancouver on North Korea's illicit transfer of materials and 
equipment?
    Ms. Jenkins. The one thing that I was able to pick up, but 
I need to get more information, is that there was an agreement 
by Canada to provide some funding to the U.S. to help with 
sanctions against North Korea. There was a pledge of $325 
million--$3.25 million to help the U.S. with the sanctions, to 
help other countries with strengthening sanctions.
    So I don't think there was a lot of--I don't know how much 
success there was in terms of bringing North Korea to the 
table, which is one of the things they wanted to do and, 
obviously, there is--thinking that by continuing the pressure 
on North Korea, that will bring them to the table and this is 
another way to try to do that. But there was a lot of 
discussion on the sanctions and how to enforce the sanctions.
    Mrs. Wagner. Great. Thank you. It seems that U.S. policy 
prioritizes the challenge of the nuclear threat over the 
challenge of the chemical and biological weapons threat. Mr. 
Parachini, do you believe the U.S. Government should work to 
change its what I will call cost-benefit analysis and better 
prioritize the chemical and biological threats? And how do you 
think we begin to do that, sir?
    Mr. Parachini. So I think a focus on the nuclear threat is 
appropriate. It is a demonstrated capability that they have now 
also demonstrated a ballistic missile capability. So it is 
generally--it is in a category in and of itself where their 
chemical and biological weapons capabilities are at different 
thresholds. We don't have a good sense of what those thresholds 
may be. They are a greater threat, I think, in both South Korea 
and the Asian theater than they are to the homeland, but I 
think that naturally leads you to prioritize nuclear first.
    Their chemical capabilities are probably more robust based 
on what we know and based on the ease of producing those types 
of weapons. And their biological weapons are probably least 
available for use, and we know less about them, so I think I 
would prioritize those less. I would say if there are ways to 
do dual-use things for detection and addressing any infectious 
diseases, that is desirable to deal with I think the least 
probable of these threats.
    Mrs. Wagner. Great. Thank you.
    Mr. Chairman, my time has expired. I thank you.
    Mr. Yoho. Thank you.
    Next, we will go to Ms. Tulsi Gabbard from the State of 
Hawaii.
    Ms. Gabbard. Thank you, Mr. Chairman.
    You know, at this point, I think no one more viscerally 
appreciates the seriousness of the threat that we face at this 
moment than the people of Hawaii who just went through a 
terrifying experience on Saturday morning, receiving this alert 
on their cell phone that a ballistic missile was incoming, take 
shelter immediately, this is not a drill. Now, obviously, we 
know now this turned out to be colossal error on the part of 
the State officials responsible for this. But it really served 
as a wake-up call to the country and to the people in 
Washington about the imminent nature of the threat that we face 
and the need for urgent and effective action to ultimately 
remove this threat from our country.
    So, Mr. Ruggiero, you were talking about sanctions and 
through a lot of the different questions, I think you gave 
responses coming at different angles. It is clear, though, that 
none of the sanctions that have been put in place over the last 
few decades against North Korea have proven effective, which is 
why we are sitting in this position, nor are they anywhere 
near--nor have they reached anywhere near the effectiveness of 
the sanctions in Iran that caused the nuclear deal to occur.
    Can you label maybe the top most effective changes to 
current sanctions that would actually prove this sanctions 
regime to be effective to create this leverage?
    Mr. Ruggiero. Well, I can give you three. We talked about 
the China financial, so we don't have to go into much detail 
about that. We talked about the fines, and that would be 
useful. I would say the other benefit of the Vancouver meeting 
is something that I testified before this committee last year 
about, which is the public nature of a like-minded group. And 
we had that on Iran, and it looks like we now have that with 
Vancouver. And I think that one of the things in the statement 
was that they are going to meet more often, so that is the 
second thing. And the third, which is related to that, is 
shipping. You know, our research indicates that there are at 
least double, if not triple, of the number of North Korean 
linked vessels that can be and really should be sanctioned. And 
then also we have already seen the South Korean stop two--or 
excuse me--freeze or impound two vessels with regard to ship-
to-ship transfers. That is an area that is going to need more 
work, and I think a lot of people don't want to interdict 
vessels, but we need to remember the value of just doing 
training exercises with regard to interdicting vessels as well. 
Doing those in a more public way to increase the costs for some 
of these vessels that may not know they are involved with North 
Korea.
    Ms. Gabbard. Anyone else? With regard to--there has been 
some conversation, especially lately, about the possibility of 
a<greek-l>, quote/unquote, deg. ``preventative or preemptive 
strike,'' and I am wondering what actual defense treaties are 
in place between China and North Korea, and Russia and North 
Korea, respectively, and what you believe their responses would 
be from the spectrum of a surgical strike that some are 
advocating for all the way to an overwhelming military strike 
coming from the United States? How would China and Russia react 
to that?
    Mr. Cordesman. There is no automatic treaty relationship 
between China and North Korea, but there is a broad security 
relationship and treaty or agreement. I think that when you 
talk about how China would react, any kind of bolt from the 
blue, just preemptive attack without a cause, would almost 
force China to react, at least diplomatically, and take a very 
strong political stand. I doubt very much if it would lead to 
immediate military action, but it would be extremely hard to 
predict. I think----
    Ms. Gabbard. Would you agree that North Korea would respond 
with military action in that instance?
    Mr. Cordesman. I think that certainly it would respond with 
some kind of military action, but whether that action would be 
something that would offset the impact of a really well-
targeted preventative strike, a lot would depend on how well we 
can actually target preventively and locate and destroy their 
nuclear capabilities, and how many other things we would do to 
restrict their retaliatory capability. There is a very wide 
range between simply trying to strike their nuclear weapons and 
what could be a major conflict.
    Ms. Gabbard. Thank you.
    Mr. Parachini. I might add that it is very dangerous to 
think about decapitation because you don't know whether or not 
this is a regime that has the dead-hand doctrine; that is, when 
the leadership goes out, some other parts of the military know 
that it is time for them to go in. And indeed that was a Soviet 
doctrine. It is a reasonable worry that North Korea may have a 
similar one. So any type of decapitation attempt, successful or 
not, might launch something that we really would not like to 
have occur.
    Ms. Gabbard. Yeah. Thank you.
    Thank you, Mr. Chairman.
    Mr. Yoho. I thank you for your questioning.
    Next, we will go to Mr. Tom Garrett from Virginia.
    Mr. Garrett. Thank you, Mr. Chairman.
    I want to start with Ambassador Jenkins, Mr. Chairman, 
because I don't know if you are aware but Ambassador Jenkins 
went to our Nation's premiere flagship public university, the 
University of Virginia, for one of her degrees, so I know she 
is going to have a good answer here.
    To your knowledge, Ambassador Jenkins, is there any other 
nation on the face of the planet circa 2018 that literally 
sells workers to do work in foreign countries and then has 
their salaries remitted to the government of that nation?
    Ms. Jenkins. I am taking my time with this one just to 
think. I don't think so.
    Mr. Garrett. I don't either. And I just--I point that out, 
not because it is directly on point, but because I think it is 
relevant for those who are trying to understand the nature of 
this regime. In my opening statement, Mr. Chair, I tried to 
illustrate that any regime that would sell its very own people 
into slavery might be willing to utilize weapons of any 
variety, be they conventional, nuclear, biological or chemical 
against not only foreigners, but their own citizens. And I also 
think it is worthy of note that the history in the region 
indicates hostilities inherent over intergenerational periods 
between not just the north and the south but also the Japanese 
and the Koreans, the Chinese and the Koreans, et cetera, and I 
think most Americans fail to understand that.
    Moving somewhat, Dr. Cordesman, dual-purpose improved 
conventional munitions, submunitions, bomblets, do we know 
whether or not the North Korean regime employs artillery, 
canon, rocket, or missile systems that might employ 
submunitions? I mean, I know the answer, but----
    Mr. Cordesman. I have not heard that they have extensive 
stocks of advanced submunitions, but I think that from some of 
the literature I have seen from Jane's and others, there are 
indications they have at least some capabilities in these 
areas.
    Mr. Garrett. And unclassified documentation indicates that 
a launcher loader worth of dual-purpose improved conventional 
munitions on the proper mathematical firing solutions would be 
able to essentially impact every single unprotected target in a 
single square kilometer. So, again, these references to 20,000 
dead in 1 day, I would submit, rhetorically, are probably low, 
particularly when you consider populations not hardened, 
densely compacted in civilian areas.
    Now, does the United States employ Dual-Purpose Improved 
Conventional Munitions by doctrine?
    Mr. Cordesman. We have a range of advanced artillery 
rounds, yes.
    Mr. Garrett. But did we not remove ourselves voluntarily 
from the----
    Mr. Cordesman. Yes.
    Mr. Garrett. And that would have been circa 2015?
    Mr. Cordesman. Right.
    Mr. Garrett. And so also we have made reference to, and you 
made reference to hardened artillery emplacements, essentially, 
in theory, these artillery emplacements might roll out from 
underneath a protective overhead cover, et cetera, fire and 
then move back in. Does that accurately characterize some of 
our understanding in the North Korean indirect fire capability?
    Mr. Cordesman. They vary sharply according to the terrain. 
Some do that. Some can fire and do fire from fixed positions.
    Mr. Garrett. And so we voluntarily stop using scatterable 
submunitions that might counter these in a counter battery 
scenario. How about area-denial munitions, RAMS and ADAMS, 
artillery-fired area-denial munitions? Do we have those in our 
capability? And do we have those in our inventory in the United 
States?
    Mr. Cordesman. I know we have them in our capability and 
had them in our capability. Quite frankly, I do not know the 
inventories involved.
    Mr. Garrett. In fact, we voluntarily removed ourselves from 
the realm of nations that would employ scatterable area-denial 
munitions. Have the North Koreans done this?
    Mr. Cordesman. No.
    Mr. Garrett. And so might these withdrawals of the United 
States from the arena of cutting-edge weaponry put us at a 
competitive disadvantage with the regime that hasn't honored 
the same commitments that we have made?
    Mr. Cordesman. If I may make two points. First, we have 
basically gone to using the equivalent of Earth penetrators 
rather than submunitions because of the blast doors on the 
hearts. That is a very restricted capability, but it requires 
you to penetrate a much more serious barrier than the artillery 
rounds we then had.
    Mr. Garrett. So, specifically, in a case of a hardened 
target, the Earth penetrator might be a preferred method. 
However, if you are trying to deny a roll-in roll-out artillery 
system, the scatterable mines might be something that would 
work best.
    Let me continue, because I have about 20 seconds remaining. 
It strikes me that the people who entered this country into 
these agreements probably never did comprehensive fire-risk 
planning for offensive or defensive operations. And it strikes 
me, and I apologize again, with all due respect, sir, and I 
have an immense amount for yourself and other members of this 
panel, that we endanger the very lives of the young women and 
men who have signed on a dotted line to potentially sacrifice 
everything that they have or ever will have for the freedom of 
this Nation and defense of the innocent people, not only of 
South Korea, but the world.
    And so I take this opportunity, Mr. Chairman, and I will 
conclude shortly, to submit that we might relook some of the 
treaties into which we entered and some of the actions we 
unilaterally engaged in in light of the very real circumstances 
in which we find ourselves 24 years post a North Korean nuclear 
deal that was to, in the words of the President who shouted 
from the mountaintops of success, ``rid the Korean Peninsula of 
a nuclear threat.''
    It is indeed existential to the young men and women in our 
uniforms and to the people, not only of the region, but of the 
world. Thank you.
    Mr. Yoho. Well spoken. I appreciate your words.
    Next, Ms. Norma Torres from California.
    Mrs. Torres. Thank you, Mr. Chairman, for holding this 
hearing.
    Mr. Ruggiero--I hoped I pronounced your name correctly--
last year, I introduced H.R. 3261, the North Korea Follow the 
Money Act. It is a simple bipartisan bill that requires a 
national intelligence estimate on North Korea's revenue 
sources.
    How much do we know about how North Korea is funding its 
chemical weapons programs?
    Mr. Ruggiero. I would just say that a lot of our 
understanding of North Korea's finances is very anecdotal 
partially because North Korea does not report its own trade 
statistics, partially because some trade statistics that are 
reported as North Korea are actually South Korea, and then also 
because the Chinese report what they want to report.
    And to perhaps the question of, you know, whether having an 
assessment of that type, of the budget and the usefulness of 
that, I would say, you know, sanctions are now being used more 
and more often, especially when it comes to North Korea. And I 
think it would be valuable, at least internally within the U.S. 
Government, to have a common understanding of where North Korea 
is now and what are the levers that can be used to affect 
different revenue streams.
    Mrs. Torres. Specifically, if we want to be very specific 
and target certain people versus an entire country, correct?
    Mr. Ruggiero. Well, the issue here, there has always been 
this narrative of leadership assets overseas. That is certainly 
something that I know that the government has focused on 
before. And as I noted earlier, the North Koreans' use their 
revenue really in three ways, military, weapons, and for the 
elites. And I think if we had an understanding of what the 
budget is like, but it will always be imprecise, but a way to 
target the sanctions to go in certain areas and to not harm the 
people, I think is the first order there.
    Mrs. Torres. Absolutely. That is why I think it is critical 
for us to, at the very least, Mr. Chairman, try to get a 
hearing on this bill, once again, H.R. 3261.
    I am also very concerned about an incident that occurred 
June 2017, a cyber attack that shut down our Nation's ports. 
The Port of Los Angeles was impacted. That is a concern to me 
because the livelihood of my constituents is dependent on the 
activities at the ports.
    Do you think that North Korea has the capability to carry 
out cyber attacks against our ports and other critical 
infrastructure?
    Mr. Ruggiero. Well, I would say that if they don't have the 
capability now, they are going to certainly work toward getting 
it. I think what we see in South Korea over the last 5 to 6 
years where North Korea used cyber to attack U.S. Forces, 
Korea, and our South Korean counterparts in a wide approach, 
and then learned from that and was more specific. In other 
words, going after 20 Web sites the first time, and then the 
second time, going after only 2.
    So I think that is part of it. The wartime environment, 
using it in a wartime environment, but then using it--what we 
like to call cyber-enabled economic warfare, to try and harm 
the United States as these sanctions increase. And then the 
third way is to make money to blunt the impact of those 
sanctions.
    Mrs. Torres. Go ahead, Ms. Jenkins.
    Ms. Jenkins. Yes, I would just add that I think the more 
effective the international community is in terms of sanctions, 
in terms of interdiction, illicit trafficking of materials and 
equipment, the more likely North Korea will rely on cyber to 
raise the funds that they need to do what they need to do. And 
in doing that, they will develop a capability to use it for 
other things.
    So there is a connection between the effectiveness of 
activities to prevent them from doing what they are doing and 
to prevent them from raising the money that they want to raise 
and their use of this other tool to raise that money.
    Mrs. Torres. So either stealing from us, directly from us, 
or shutting down our commerce.
    What can we do to protect ourselves? Yes, sir.
    Mr. Cordesman. I think that really is a key question. An 
awful lot of the problem we face is the failure basically to 
provide basic defenses, reduce cyber vulnerability, set 
standards that do not allow ease of attack. When countries like 
North Korea can attack a critical infrastructure function, the 
question is, why is it vulnerable in the first place?
    Mrs. Torres. Thank you. I ran out of time.
    Mr. Chairman, I yield back.
    Mr. Yoho. I appreciate your participation and your 
questions. And the panel, I thank you for your endurance, your 
information that you have given us.
    What I see is the continuing evolution of the North Korean 
saga, going from the Korean War to where we are at today. And 
we have seen past administrations, both Republican and 
Democrats use the carrot and stick. And at each point, the 
Koreans got stronger as far as their development.
    I have a hard time believing they did this on their own. I 
feel there was a lot of help, whether it was from Pakistan in 
the beginning, to Russia, to China, to other actors. And they 
are used as a proxy state in a lot of these ventures, but now 
they are at a point where they are today. And I think you just 
brought up a point about defensive mechanisms. And I look at 
the THAAD system South Korea put in that was so warranted at 
the time, but I saw China retaliate against South Korea. South 
Korea was doing that just for their protection. And I think 
they were very warranted to bring in the other ones. And again, 
at the dismay and dissatisfaction of China. But I think it is 
very important.
    And I think we, as a Nation, should make sure that that 
offer stands on the table as something that South Korea can use 
to make sure that they have the defensive mechanisms. But this 
is, of course, up to the South Koreans. And we are at a 
different point now with the talks that are going on between 
the two Koreas. We can just hope that with the efforts of the 
world community coming together, putting pressure on all 
partners that are trading with North Korea, that this will come 
to a peaceful resolution.
    I can't thank you enough for being here. Do you have any 
further comments you want to say or you feel pretty confident 
with what has gone on?
    Hearing no other comments, I want to thank the witnesses. I 
want to thank the members, and I want to thank Judge Poe for 
calling this important meeting jointly together with the Asia-
Pacific Subcommittee. In his absence, I would like to end it 
with, ``and that is the way it is.''
    This meeting is adjourned.
    [Whereupon, at 4:09 p.m., the subcommittees were 
adjourned.]

                                     

                                     

                            A P P E N D I X

                              ----------                              


         Material Submitted for the Record
         
         
         
      [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
   
                                  [all]
                                  
                                  
                                  
</pre></body></html>
